APPENDICES

1a
APPENDIX A
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2223
SRI INTERNATIONAL, INC.,
Plaintiff-Appellee,
v.
CISCO SYSTEMS, INC.,
Defendant-Appellant.
Appeal from the United States District Court for the
District of Delaware in No. 1:13-cv-01534-SLR-SRF,
Judge Sue L. Robinson.
ON PETITION FOR PANEL REHEARING

Before LOURIE, O’MALLEY, and STOLL, Circuit
Judges.
PER CURIAM.
ORDER
Appellant Cisco Systems, Inc., filed a combined petition for panel rehearing and rehearing en banc on May
10, 2019. A response to the petition was invited by the
court and filed by Appellee SRI International, Inc.

2a
Upon consideration thereof,
IT IS ORDERED THAT:
1) The petition for panel rehearing is granted in
part and denied in part.
2) The previous precedential opinion in this appeal, issued March 20, 2019, is withdrawn and
replaced with the modified precedential opinion
accompanying this order. The modifications
appear in section V of the opinion, along with
corresponding changes to the introduction and
conclusion.
FOR THE COURT
July 12, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2223
SRI INTERNATIONAL, INC.,
Plaintiff-Appellee,
v.
CISCO SYSTEMS, INC.,
Defendant-Appellant.
Appeal from the United States District Court for the
District of Delaware in No. 1:13-cv-01534-SLR-SRF,
Judge Sue L. Robinson.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Cisco Systems, Inc., filed a combined petition for panel rehearing and rehearing en banc on May
10, 2019. A response to the petition was invited by the
court and filed by Appellee SRI International, Inc. The
petition was referred to the panel that heard the appeal

4a
and was thereafter referred to the circuit judges who
are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
1) The petition for panel rehearing is granted in
part and denied in part. See accompanying order.
2) The petition for rehearing en banc is denied.
3) The mandate of this court will issue on
August 19, 2019.
FOR THE COURT
July 12, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

5a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2223
SRI INTERNATIONAL, INC.,
Plaintiff-Appellee,
v.
CISCO SYSTEMS, INC.,
Defendant-Appellant.
Appeal from the United States District Court for
the District of Delaware in No. 1:13-cv-01534-SLRSRF, Judge Sue L. Robinson.
OPINION ISSUED: March 20, 2019
OPINION MODIFIED: July 12, 2019∗
Before LOURIE, O’MALLEY, and STOLL, Circuit Judges.
Opinion for the court filed by Circuit Judge STOLL.
Dissenting opinion filed by Circuit Judge LOURIE.
STOLL, Circuit Judge.
This is an appeal from a final judgment in a patent
case. Cisco Systems, Inc. (“Cisco”) appeals the district
court’s (1) denial of Cisco’s motion for summary judgment of patent ineligibility under § 101, (2) construction
of the claim term “network traffic data,” (3) grant of
∗

This opinion has been modified and reissued following a petition for rehearing filed by Defendant-Appellant.

6a
summary judgment of no anticipation, and (4) denial of
judgment as a matter of law of no willful infringement.
Cisco also appeals the district court’s grant of enhanced
damages, attorneys’ fees, and ongoing royalties.
We affirm the district court’s denial of summary
judgment of ineligibility, adopt its construction of
“network traffic data,” and affirm its summary judgment of no anticipation. We vacate and remand the district court’s denial of judgment as a matter of law of no
willful infringement, and therefore vacate and remand
the district court’s enhancement of damages and award
of attorneys’ fees. Finally, we affirm the district court’s
award of ongoing royalties on post-verdict sales of
products that were actually found to infringe or are not
colorably different. Accordingly, we affirm-in-part, vacate-in-part, and remand for further proceedings consistent with this opinion.
BACKGROUND
I.
While the interconnectivity of computer networks
facilitates access for authorized users, it also increases
a network’s susceptibility to attacks from hackers,
malware, and other security threats. Some of these security threats can only be detected with information
from multiple sources. For instance, a hacker may try
logging in to several computers or monitors in a network. The number of login attempts for each computer
may be below the threshold to trigger an alert, making
it difficult to detect such an attack by looking at only a
single monitor location in the network. In an attempt
to solve this problem, SRI developed the inventions
claimed in U.S. Patent Nos. 6,484,203 and 6,711,615.
The ’615 patent (titled “Network Surveillance”) is a

7a
continuation of the ’203 patent (titled “Hierarchical
Event Monitoring and Analysis”).
II.
SRI had performed considerable research and development on network intrusion detection prior to filing
the patents-in-suit. In fact, SRI’s Event Monitoring
Enabling Responses to Anomalous Live Disturbances
(“EMERALD”) project had attracted considerable attention in this field. The Department of Defense’s Defense Advanced Research Projects Agency, which
helped fund EMERALD, called it a “gem in the world
of cyber defense” and “a quantum leap improvement
over” previous technology. J.A. 1272–73 at 272:16–17,
273:7–9. In October 1997, SRI presented a paper entitled “EMERALD: Event Monitoring Enabling Responses to Anomalous Live Disturbances” (“EMERALD 1997”) at the 20th National Information Systems
Security Conference.
EMERALD 1997 is a conceptual overview of the
EMERALD system. It describes in detail SRI’s early
research in intrusion detection technology and outlines
the development of next generation technology for detecting network anomalies. SRI Int’l Inc. v. Internet
Sec. Sys., Inc., 647 F. Supp. 2d 323, 334 (D. Del. 2009).
The parties do not dispute that EMERALD 1997 constitutes prior art under 35 U.S.C. § 102(b). EMERALD
1997 is listed as a reference on the face of the ’615 patent.
III.
The patents share a nearly identical specification
and a priority date of November 9, 1998. At the summary judgment stage, SRI asserted claims 1–4, 14–16,
and 18 of the ’615 patent and claims 1–4, 12–15, and 17

8a
of the ’203 patent. By the time of trial, SRI had narrowed the asserted claims to claims 1, 2, 12, and 13 of
the ’203 patent and claims 1, 2, 13, and 14 of the ’615 patent. The jury considered only this narrower set of
claims.
The parties identify different representative
claims. Cisco proposes claim 1 of the ’203 patent, while
SRI proposes claim 1 of the ’615 patent. The claims are
substantially similar, as the minor differences between
them are not material to any issue on appeal. As such,
we adopt SRI’s proposal and use ’615 patent claim 1 as
the representative claim.1 It reads:
1. A computer-automated method of hierarchical event monitoring and analysis within an
enterprise network comprising:
deploying a plurality of network monitors
in the enterprise network;
detecting, by the network monitors, suspicious network activity based on analysis of
network traffic data selected from one or
more of the following categories: {network
packet data transfer commands, network
packet data transfer errors, network packet data volume, network connection requests, network connection denials, error
codes included in a network packet, network connection acknowledgements, and
1

The minor differences between the two claims are in the detecting clause—claim 1 of the ’615 patent allows for network traffic
data selected from “one or more of” the enumerated categories,
and includes two extra categories in its list: “network connection
acknowledgements” and “network packets indicative of wellknown network-service protocols.” Compare ’203 patent col. 14 ll.
19–35 (claim 1), with ’615 patent col. 15 ll. 2–21 (claim 1).

9a
network packets indicative of well-known
network-service protocols};
generating, by the monitors, reports of said
suspicious activity; and
automatically receiving and integrating the
re-ports of suspicious activity, by one or
more hierarchical monitors.
’615 patent col. 15 ll. 2–21.
After SRI sued Cisco for infringement of the ’615
patent and the ’203 patent, Cisco unsuccessfully moved
for summary judgment on several issues, including that
the claims are ineligible and that the EMERALD 1997
reference anticipates the claims.2 SRI Int’l, Inc. v. Cisco Sys., Inc., 179 F. Supp. 3d 339 (D. Del. Apr. 11, 2016)
(“Summary Judgment Op.”). The district court denied
Cisco’s motions and instead sua sponte granted summary judgment of no anticipation in SRI’s favor.3 Id. at
369.

2

The patents previously survived multiple anticipation challenges based on the EMERALD 1997 reference. The Patent Office considered EMERALD 1997 during the original prosecution
and issued the patents over it. J.A. 32734 ¶ 47; J.A. 32814–15
¶ 207. In addition, during the two reexaminations, the Patent Office again considered the validity of the asserted claims over EMERALD 1997 and again found the claims valid. J.A. 32734 ¶ 47.
Additionally, in SRI International Inc. v. Internet Security Systems, Inc., a jury found the patents not anticipated by EMERALD
1997. 647 F. Supp. 2d at 350. The district court denied JMOL, concluding that the verdict was supported by expert testimony that
EMERALD 1997 failed to disclose the claim limitation at issue.
Id. We affirmed without opinion. SRI Int’l Inc. v. Internet Sec.
Sys., Inc., 401 F. App’x 530 (Fed. Cir. 2010).
3

The parties disputed only whether EMERALD 1997 discloses detection of any of the network traffic data categories listed

10a
The court then held a jury trial on infringement,
validity, and willful infringement of claims 1, 2, 13, and
14 of the ’615 patent and claims 1, 2, 12, and 13 of the
’203 patent, as well as damages. The jury found that
Cisco intrusion protection system (“IPS”) products,
Cisco remote management services, Cisco IPS services,
Sourcefire4 IPS products, and Sourcefire professional
services directly and indirectly infringed the asserted
claims. The jury awarded SRI a 3.5% reasonable royalty for a total of $23,660,000 in compensatory damages.
The jury also found by clear and convincing evidence
that Cisco’s infringement was willful.
After post-trial briefing, the district court denied
Cisco’s renewed motion for JMOL of no willfulness.
SRI Int’l, Inc. v. Cisco Sys., Inc., 254 F. Supp. 3d 680,
717 (D. Del. 2017) (“Post-Trial Motions Op.”). Based on
the willfulness verdict, the district court determined
that “some enhancement is appropriate given Cisco’s
litigation conduct,” the “fact that Cisco lost on all issues
during summary judgment,” and “its apparent disdain
for SRI and its business model.” Id. at 723. The court
then doubled the damages award. It also granted SRI’s
motion for attorneys’ fees, compulsory license, and prejudgment interest.

in claim 1 of the ’203 and ’615 patents and whether EMERALD
1997 is enabled. One of the claimed categories of network traffic is
“network connection requests,” which Cisco asserts is disclosed by
EMERALD 1997.
4

“Sourcefire” is a network security company that Cisco acquired in 2013. J.A. 2467–68. Cisco now markets network security
products and services under the Sourcefire name.

11a
Cisco appeals the district court’s claim construction
and denial of summary judgment of ineligibility5, as
well as its grant of summary judgment of no anticipation, enhanced damages, attorneys’ fees, and ongoing
royalties.
We have jurisdiction under 28 U.S.C.
§ 1295(a)(1).
DISCUSSION
I.
We review de novo whether a claim is drawn to patent-eligible subject matter. Berkheimer v. HP Inc.,
881 F.3d 1360, 1365 (Fed. Cir. 2018) (citing Intellectual
Ventures I LLC v. Capital One Fin. Corp., 850 F.3d
1332, 1338 (Fed. Cir. 2017)). Section 101 defines patenteligible subject matter as “any new and useful process,
machine, manufacture, or composition of matter, or any
new and useful improvement thereof.” 35 U.S.C. § 101.
Laws of nature, natural phenomena, and abstract ideas,
however, are not patentable. See Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 70–71
(2012) (citing Diamond v. Diehr, 450 U.S. 175, 185
(1981)).
To determine whether a patent claims ineligible
subject matter, the Supreme Court has established a
5

We may review this denial of summary judgment because “a
denial of a motion for summary judgment may be appealed, even
after a final judgment at trial, if the motion involved a purely legal
question and the factual disputes resolved at trial do not affect the
resolution of that legal question.” United Techs. Corp. v. Chromalloy Gas Turbine Corp., 189 F.3d 1338, 1344 (Fed. Cir. 1999)
(citing Wolfgang v. Mid-Am. Motorsports, Inc., 111 F.3d 1515,
1521 (10th Cir. 1997); Rekhi v. Wildwood Indus., Inc., 61 F.3d 1313,
1318 (7th Cir. 1995)). Neither party contends that fact issues arise
in the patent-eligibility analysis in this case. Therefore, we may
review the purely legal question of patent eligibility.

12a
two-step framework. First, we must determine whether the claims at issue are directed to a patent-ineligible
concept such as an abstract idea. Alice Corp. v. CLS
Bank Int’l, 573 U.S. 208, 217 (2014). Second, if the
claims are directed to an abstract idea, we must “consider the elements of each claim both individually and
‘as an ordered combination’ to determine whether the
additional elements ‘transform the nature of the claim’
into a patent-eligible application.” Id. (quoting Mayo,
566 U.S. at 79). To transform an abstract idea into a
patent-eligible application, the claims must do “more
than simply stat[e] the abstract idea while adding the
words ‘apply it.’” Id. at 221 (quoting Mayo, 566 U.S. at
72 (internal alterations omitted)).
We resolve the eligibility issue at Alice step one
and conclude that claim 1 is not directed to an abstract
idea. See Enfish, LLC v. Microsoft Corp., 822 F.3d
1327, 1337 (Fed. Cir. 2016). The district court concluded that the claims are more complex than merely reciting the performance of a known business practice on
the Internet and are better understood as being necessarily rooted in computer technology in order to solve a
specific problem in the realm of computer networks.
Summary Judgment Op., 179 F. Supp. 3d at 353–54
(citing ’203 patent col. 1 ll. 37–40; DDR Holdings, LLC
v. Hotels.com, L.P., 773 F.3d 1245, 1257 (Fed. Cir.
2014)). We agree. The claims are directed to using a
specific technique—using a plurality of network monitors that each analyze specific types of data on the network and integrating reports from the monitors—to
solve a technological problem arising in computer networks: identifying hackers or potential intruders into
the network.
Contrary to Cisco’s assertion, the claims are not directed to just analyzing data from multiple sources to

13a
detect suspicious activity. Instead, the claims are directed to an improvement in computer network technology. Indeed, representative claim 1 recites using
network monitors to detect suspicious network activity
based on analysis of network traffic data, generating
reports of that suspicious activity, and integrating
those reports using hierarchical monitors. ’615 patent
col. 15 ll. 2–21. The “focus of the claims is on the specific asserted improvement in computer capabilities”—
that is, providing a network defense system that monitors network traffic in real-time to automatically detect
large-scale attacks. Enfish, 822 F.3d at 1335–36.
The specification bolsters our conclusion that the
claims are directed to a technological solution to a technological problem. The specification explains that,
while computer networks “offer users ease and efficiency in exchanging information,” ’615 patent col. 1 ll. 28–
29, “the very interoperability and sophisticated integration of technology that make networks such valuable assets also make them vulnerable to attack, and
make dependence on networks a potential liability.” Id.
at col. 1 ll. 36–39. The specification further teaches
that, in conventional networks, seemingly localized
triggering events can have glob-ally disastrous effects
on widely distributed systems—like the 1980 ARPAnet
collapse and the 1990 AT&T collapse. See id. at col. 1 ll.
43–47. The specification explains that the claimed invention is directed to solving these weaknesses in conventional networks and provides “a framework for the
recognition of more global threats to interdomain connectivity, including coordinated attempts to infiltrate
or destroy connectivity across an entire net-work enterprise.” Id. at col. 3 ll. 44–48.
Cisco argues that the claims are directed to an abstract idea for three primary reasons. First, Cisco ar-

14a
gues that the claims are analogous to those in Electric
Power Group, LLC v. Alstom S.A., 830 F.3d 1350 (Fed.
Cir. 2016), and are simply directed to generic steps required to collect and analyze data. We disagree. The
Electric Power claims were drawn to using computers
as tools to solve a power grid problem, rather than improving the functionality of computers and computer
networks themselves. Id. at 1354. We conclude that
the claims are more like the patent-eligible claims in
DDR Holdings. In DDR, we emphasized that the
claims were directed to more than an abstract idea that
merely required a “computer network operating in its
normal, expected manner.” 773 F.3d at 1258. Here, the
claims actually prevent the normal, expected operation
of a conventional computer network. Like the claims in
DDR, the claimed technology “overrides the routine
and conventional sequence of events” by detecting suspicious network activity, generating reports of suspicious activity, and receiving and integrating the reports
using one or more hierarchical monitors. Id.
Second, Cisco argues that the invention does not
involve “an improvement to computer functionality itself.” Enfish, 822 F.3d at 1336. In Alice, the Supreme
Court advised that claims directed to independently
abstract ideas that use computers as tools are still abstract. 573 U.S. at 222–23. However, the claims here
are not directed to using a computer as a tool—that is,
automating a conventional idea on a computer. Rather,
the representative claim improves the technical functioning of the computer and computer networks by reciting a specific technique for improving computer network security.
Cisco also submits that the asserted claims are so
general that they encompass steps that people can “go
through in their minds,” allegedly confirming that they

15a
are directed to an abstract concept. Appellant Br. 27–
28 (citing Capital One, 850 F.3d at 1340; Intellectual
Ventures I LLC v. Symantec Corp., 838 F.3d 1307, 1318
(Fed. Cir. 2016); CyberSource Corp. v. Retail Decisions,
Inc., 654 F.3d 1366, 1371 (Fed. Cir. 2011)). We disagree. This is not the type of human activity that § 101
is meant to exclude. Indeed, we tend to agree with SRI
that the human mind is not equipped to detect suspicious activity by using network monitors and analyzing
network packets as recited by the claims.
Because we conclude that the claims are not directed to an abstract idea under step one of the Alice
analysis, we need not reach step two. See Enfish, 822
F.3d at 1339. Accordingly, we affirm the district
court’s summary judgment that the claims are patenteligible.
II.
A district court’s claim construction based solely on
intrinsic evidence is a legal question that we review de
novo. See Teva Pharm. USA, Inc. v. Sandoz, Inc., 135
S. Ct. 831, 841 (2015). Claim construction seeks to ascribe the “ordinary and customary meaning” to claim
terms as a person of ordinary skill in the art would have
understood them at the time of invention. Phillips v.
AWH Corp., 415 F.3d 1303, 1312–14 (Fed. Cir. 2005) (en
banc) (quoting Vitronics Corp. v. Conceptronic, Inc., 90
F.3d 1576, 1582 (Fed. Cir. 1996)). “[T]he claims themselves provide substantial guidance as to the meaning
of particular claim terms.” Id. at 1314. In addition,
“the person of ordinary skill in the art is deemed to
read the claim term not only in the context of the particular claim in which the disputed term appears, but in
the context of the entire patent, including the specification.” Id. at 1313.

16a
The district court construed “[n]etwork traffic data” to mean “data obtained from direct examination of
network packets.” SRI Int’l, Inc. v. Dell Inc., No.
CV13-1534-SLR, 2015 WL 2265756, at *1–2 (D. Del.
May 14, 2015). After reviewing the parties’ pleadings
on summary judgment, the district court determined
that its construction would benefit from clarification.
The district court explained that “[t]o say that the data
‘is obtained from direct examination of network packets’ means to differentiate the original source of the data, not how or where the data is analyzed. ... The fact
that the data may be stored before analysis is performed on the data does not detract from its lineage.”
Summary Judgment Op., 179 F. Supp. 3d at 363. The
district court explicitly rejected the opinion of Cisco’s
expert, Dr. Clark, that the court’s claim construction
should require that the analysis of data obtained from
network packets take place without any further manipulation whatsoever. Id.
On appeal, Cisco offers a more nuanced construction, asserting that term should instead be construed as
“detecting suspicious network activity based on ‘direct
examination of network packets,’ where such ‘direct
examination’ does not include merely examining data
that has been obtained, generated, or gleaned from
network packets.” Appellant Br. 42. According to Cisco, based on SRI’s express prosecution disclaimer during reexamination, the claims require detecting suspicious activity based on “direct examination” of network
packets, not data “generated” or “gleaned” from packets. Cisco would thus construe the term to exclude a
process that decodes the network packet.
We conclude that Cisco’s proposed construction
goes too far in limiting the amount of preprocessing encompassed by the claim. The specification shows that

17a
preprocessing is a contemplated and expected part of
the claimed invention. Indeed, the specification specifically mentions different forms of preprocessing network packets prior to examination, including decryption (’615 patent col. 3 ll. 61–63), parsing (id. at col. 8 ll.
10–12), and decoding (id. at col. 8 ll. 7–9).
Cisco’s argument that SRI disclaimed preprocessing during reexamination of its patents is also not
persuasive. To invoke argument-based estoppel, “the
prosecution history must evince a ‘clear and unmistakable surrender’” of this kind of preprocessing. Deering
Precision Instruments v. Vector Distrib. Sys., 347 F.3d
1314, 1326 (Fed. Cir. 2003) (quoting Eagle Comtronics,
Inc. v. Arrow Commc’n Labs., Inc., 305 F.3d 1303, 1316
(Fed. Cir. 2002)); see also Krippelz v. Ford Motor Co.,
667 F.3d 1261, 1267 (Fed. Cir. 2012) (applying prosecution history disclaimer from reexamination proceedings). Here, SRI’s statements during reexamination
reflect that SRI drew the line between what does and
does not comprise “direct examination” by excluding
information derived from network packet data (for example, network traffic measures and network traffic
statistics). At the same time, SRI explained that “direct examination” includes the data from which the
network traffic measures and network traffic statistics
are derived (that is, the data in the network packets).
For example, SRI explained that the specification:
[D]emonstrates that the term “network traffic
data” requires information obtained by direct
packet examination by using the distinctly different terms “network traffic measures” and
“network traffic statistics” when discussing information derived from network traffic observation, as compared to the data from which the
measures and statistics are derived.

18a
Brief for the Patentee on Appeal at 7, In re Porras,
Reexam No. 90/008,125 (B.P.A.I. Jan. 14, 2010) (citing
’203 patent col. 4 ll. 55–60 (discussing “network traffic
statistics”) and col. 5 ll. 28–30 (discussing “network
traffic measures”)).
We read SRI’s statements during reexamination as
simply explaining that “network traffic statistics,” such
as number of packets and number of kilobytes transferred, are statistics derived from the network packet
data—not the underlying data itself. SRI did not argue
that the actual data underlying the measures and statistics—the data in the network packets—could not be
subject to direct examination. Nor did SRI take the
position that “direct examination” must take place before any or all processing. SRI did not mention processing at all during reexamination. Moreover, as the
specification makes clear, the system may need to decrypt, parse, or decode the data packets—all forms of
preprocessing—in order to directly examine the network packet data underlying the network traffic statistics.
We hold that SRI’s statements in the prosecution
history do not invoke a clear and unmistakable surrender of all preprocessing, including decryption, decoding,
and parsing. Accordingly, we agree with the district
court’s construction of “network traffic data” to mean
“data obtained from direct examination of network
packets.”
III.
We also hold that the district court did not err in
granting summary judgment that the asserted claims
are not anticipated by SRI’s own EMERALD 1997 reference. We review the district court’s summary judg-

19a
ment of no anticipation under regional circuit law. See
MAG Aerospace Indus., Inc. v. B/E Aerospace, Inc.,
816 F.3d 1374, 1376 (Fed. Cir. 2016). The Third Circuit
reviews a grant of summary judgment de novo, applying the same standard as the district court. See Gonzalez v. Sec’y of Dep’t of Homeland Sec., 678 F.3d 254, 257
(3d Cir. 2012). Summary judgment is appropriate
when, drawing all justifiable inferences in the nonmovant’s favor, there exists no genuine issue of material fact and the movant is entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a); see also Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986). Anticipation requires that a single prior art reference disclose
each and every limitation of the claimed invention, either expressly or inherently. See Verdegaal Bros. v.
Union Oil Co. of Cal., 814 F.2d 628, 631 (Fed. Cir.
1987).
EMERALD 1997 discloses a tool for tracking malicious activity across large networks. The question before us is whether the district court erred in concluding
on summary judgment that EMERALD 1997 does not
disclose detection of any of the network traffic data
categories listed in claim 1 of the ’203 and ’615 patents.
The Patent Office considered EMERALD 1997 during
the original examination of the ’615 patent, and the patentability of the claims over the reference was confirmed in multiple reexamination and litigation proceedings. Indeed, during reexamination, the Patent
Office accepted SRI’s argument that the claim limitation requires detecting suspicious activity based on “direct examination” of network packets to distinguish
EMERALD 1997. J.A. 26402 (“[T]he closest prior art
of record, Emerald 1997, fails to teach direct examination of packet data.”); J.A. 27101 (same).

20a
EMERALD 1997 describes detecting a DNS/NFS
attack in “real-time.” J.A. 5004. To achieve this, EMERALD 1997 explains:
The subscription list field is an important facility for gaining visibility into malicious or
anomalous activity outside the immediate environment of an EMERALD monitor. The most
obvious examples where relationships are important involve interdependencies among network services that make local policy decisions.
Consider, for example, the interdependencies
between access checks per-formed during network file system [“NFS”] mounting and the IP
mapping of the DNS service. An unexpected
mount monitored by the network file system
service may be responded to differently if the
DNS monitor informs the network file system
monitor of suspicious updates to the mount requester’s DNS mapping.
J.A. 5008. EMERALD 1997 further explains that:
Above the service layer, signature engines scan
the aggregate of intrusion reports from service
monitors in an attempt to detect more global
coordinated attack scenarios or scenarios that
exploit interdependencies among network services. The DNS/NFS attack discussed [above]
is one such example of an aggregate attack scenario.
J.A. 5010.
Cisco’s expert submitted a report concluding that a
person of ordinary skill in the art would understand
from this disclosure that “monitoring specific network
services, such as HTTP, FTP, network file systems,

21a
finger, Kerberos, and SNMP would require detecting
and analyzing packets indicative of those well-known
network service protocols, one of the enumerated categories in claim 1 of the ’615 patent.” J.A. 30347 (emphasis added). During deposition, however, Cisco’s expert retreated from this position, admitting that a person of ordinary skill reading EMERALD 1997 would
have understood that it was not necessary to directly
examine the packets, although that would be “one very
good way” to prevent attacks. J.A. 50040 at 159:12–21.
On this record, we conclude that summary judgment was appropriate. EMERALD 1997 does not expressly disclose directly examining network packets as
required by the claims—especially not to obtain data
about network connection requests. Nor does Cisco’s
expert testimony create a genuine issue of fact on this
issue. Rather, we agree with the district court that
Cisco’s expert’s testimony is both inconsistent and
“based on [] multiple layers of supposition.” Summary
Judgment Op., 179 F. Supp. 3d at 358. Because the evidence does not support express or inherent disclosure
of direct examination of packet data, we conclude that
the district court did not err in holding that there was
no genuine issue of fact regarding whether EMERALD
1997 disclosed analyzing the specific enumerated types
of network traffic data recited in the claims.
Cisco next argues that the district court erred by
granting summary judgment for SRI sua sponte despite SRI’s failure to move for such relief. We disagree. Under Third Circuit law, a district court may
properly enter summary judgment sua sponte “so long
as the losing party was on notice that she had to come
forward with all of her evidence.” Gibson v. Mayor &
Council of City of Wilmington, 355 F.3d 215, 222 (3d
Cir. 2004) (quoting Celotex Corp. v. Catrett, 477 U.S.

22a
317, 326 (1986)). By filing its own motion for summary
judgment, Cisco was on notice that anticipation was before the court, and Cisco had the opportunity to put
forth its best evidence. Additionally, SRI did argue, in
opposition to Cisco’s summary judgment motion, that
the district court should outright reject Cisco’s assertion of invalidity. J.A. 31650 (“Cisco’s assertion of invalidity should be rejected ... .”). Indeed, SRI expressly
took the position that EMERALD 1997 “does not anticipate any claim of the ’203 or ’615 patents.” J.A. 31678.
Thus, any notice requirement was satisfied because
Cisco itself indicated that the issue was ripe for summary adjudication and SRI took the position that the
claims were not anticipated. Accordingly, we see no
error in the sua sponte nature of the district court’s order and we affirm the summary judgment of no anticipation.
IV.
Cisco also appeals the district court’s denial of
JMOL that it did not willfully infringe the asserted patents because the jury’s willfulness finding is not supported by substantial evidence. We agree that the jury’s finding that Cisco willfully infringed the patents-insuit prior to receiving notice thereof is not supported
by substantial evidence and therefore vacate and remand.
We review decisions on motions for JMOL under
the law of the regional circuit. Energy Transp. Grp.
Inc. v. William Demant Holding A/S, 697 F.3d 1342,
1350 (Fed. Cir. 2012). The Third Circuit reviews district court decisions on such motions de novo. Acumed
LLC v. Adv. Surgical Servs., Inc., 561 F.3d 199, 211 (3d
Cir. 2009) (citing Monteiro v. City of Elizabeth, 436
F.3d 397, 404 (3d Cir. 2006)). In the Third Circuit, a

23a
“court may grant a judgment as a matter of law contrary to the verdict only if ‘the record is critically deficient
of the minimum quantum of evidence’ to sustain the
verdict.” Id. (citing Gomez v. Allegheny Health Servs.,
Inc., 71 F.3d 1079, 1083 (3d Cir. 1995)). The court
should grant JMOL “sparingly” and “only if, viewing
the evidence in the light most favorable to the nonmovant and giving it the advantage of every fair and
reasonable inference, there is insufficient evidence from
which a jury reasonably could find liability.” Marra v.
Phila. Hous. Auth., 497 F.3d 286, 300 (3d Cir. 2007)
(quoting Moyer v. United Dominion Indus., Inc., 473
F.3d 532, 545 n.8 (3d Cir. 2007)).
As the Supreme Court stated in Halo, “[t]he sort of
conduct warranting enhanced damages has been variously described in our cases as willful, wanton, malicious, bad-faith, deliberate, consciously wrongful, flagrant, or—indeed—characteristic of a pirate.” Halo
Elecs., Inc. v. Pulse Elecs., Inc., 136 S. Ct. 1923, 1932
(2016). While district courts have discretion in deciding
whether or not behavior rises to that standard, such
findings “are generally reserved for egregious cases of
culpable behavior.” Id. Indeed, as Justice Breyer emphasized in his concurrence, it is the circumstances that
transform simple “intentional or knowing” infringement into egregious, sanctionable behavior, and that
makes all the difference. Id. at 1936 (Breyer, J., concurring). A patentee need only show by a preponderance of the evidence the facts that support a finding of
willful infringement. Id. at 1934.
In denying Cisco’s motion for JMOL on willfulness,
the district court concluded that the jury’s willfulness
determination was supported by two evidentiary bases.
First, the court identified evidence that “key Cisco employees did not read the patents-in-suit until their dep-

24a
ositions.” Post-Trial Motions Op., 254 F. Supp. 3d at
717. Second, the court identified evidence that Cisco
designed the products and services in an infringing
manner and that Cisco instructed its customers to use
the products and services in an infringing manner.
Based on these two facts, the district court denied Cisco’s renewed motion for JMOL on willfulness, stating
that “[v]iewing the record in the light most favorable to
SRI, substantial evidence supports the jury’s subjective willfulness verdict.” Id.
On appeal, SRI identifies additional evidence that
purportedly supports the jury’s willfulness verdict.
Specifically, SRI presented evidence that Cisco expressed interest in the patented technology and met
with SRI’s inventor in 2000 before developing its infringing products. J.A. 1484–86; J.A. 5027. Additionally, SRI submitted evidence that Cisco received a notice
letter from SRI’s licensing consultant on May 8, 2012,
informing Cisco of the asserted patents (a year before
SRI filed the complaint). Finally, like the district court,
SRI makes much of the fact that “key engineers” did
not look at SRI’s patents until SRI took their depositions during this litigation. In particular, Cisco engineers Martin Roesch and James Kasper did not look at
the patent until their depositions in 2015.
Even accepting this evidence as true and weighing
all inferences in SRI’s favor, we conclude that the record is insufficient to establish that Cisco’s conduct rose
to the level of wanton, malicious, and bad-faith behavior
required for willful infringement. First, it is undisputed that the Cisco employees who did not read the patents-in-suit until their depositions were engineers
without legal training. Given Cisco’s size and resources, it was unremarkable that the engineers—as
opposed to Cisco’s in-house or outside counsel—did not

25a
analyze the patents-in-suit themselves. The other rationale offered by the district court—that Cisco designed the products and services in an infringing manner and that Cisco instructed its customers to use the
products and services in an infringing manner—is nothing more than proof that Cisco directly infringed and
induced others to infringe the patents-in-suit.
It is undisputed that Cisco did not know of SRI’s
patent until May 8, 2012, when SRI sent its notice letter to Cisco. Oral Arg. at 23:46, available at
http://oralarguments.cafc.uscourts.gov/default.aspx?fl=
2017-2223.mp3. It is also undisputed that this notice
letter was sent years after Cisco independently developed the accused systems and first sold them in 2005
(Cisco) and 2007 (Sourcefire). As SRI admits, the patents had not issued when the parties met in May 2000.
Indeed, the patent application for the parent ’203 patent was not even filed until several months after the
parties met. Thus, Cisco could not have been aware of
the patent application.
While the jury heard evidence that Cisco was
aware of the patents in May 2012, before filing of the
lawsuit, we do not see how the record supports a willfulness finding going back to 2000. As the Supreme
Court recently observed, “culpability is generally
measured against the knowledge of the actor at the
time of the challenged conduct.” Halo, 136 S. Ct. at
1933. Similarly, Cisco’s allegedly aggressive litigation
tactics cannot support a finding of willful infringement
going back to 2000, especially when the litigation did
not start until 2012. Finally, Cisco’s decision not to
seek an advice-of-counsel defense is legally irrelevant
under 35 U.S.C. § 298.

26a
Viewing the record in the light most favorable to
SRI, the jury’s verdict of willful infringement before
May 8, 2012 is not supported by substantial evidence.
Given the general verdict form, we presume the jury
also found that Cisco willfully infringed after May 8,
2012. When reviewing a denial of JMOL, “where there
is a black box jury verdict, as is the case here, we presume the jury resolved underlying factual disputes in
favor of the verdict winner and leave those presumed
findings undisturbed if supported by substantial evidence.” Arctic Cat Inc. v. Bombardier Recreational
Prods. Inc., 876 F.3d 1350, 1358 (Fed. Cir. 2017), (citing
WBIP, LLC v. Kohler Co., 829 F.3d 1317, 1326 (Fed.
Cir. 2016)), cert. denied, 139 S. Ct. 143(2018). We leave
it to the district court to decide in the first instance
whether the jury’s presumed finding of willful infringement after May 8, 2012 is supported by substantial evidence.6 In so doing, the court should bear in
mind the standard for willful infringement, as well as
the above analysis regarding SRI’s evidence of willfulness. Accordingly, we vacate and remand the district
court’s denial of Cisco’s renewed motion for JMOL of no
willful infringement.
Cisco also argues that the district court abused its
discretion by doubling damages. Enhanced damages
under § 284 are predicated on a finding of willful in6

We recognize that, ideally, it should not fall to the district
court to determine when, if ever, willful infringement began
through the mechanism of JMOL. Rather, the question of when
willful infringement began is a fact issue that would have been
best presented to the jury in a special verdict form with appropriate jury instructions. Better yet, perhaps SRI could have recognized the shortcomings in its case and presented a more limited
case of willful infringement from 2012 onwards. Or perhaps Cisco
could have filed a motion for summary judgment of no willful infringement prior to May 8, 2012.

27a
fringement. Because we conclude that the jury’s finding of willfulness before 2012 was not supported by
substantial evidence, we do not reach the propriety of
the district court’s award of enhanced damages. Instead, we vacate the award of enhanced damages and
remand for further consideration along with willfulness.
V.
We next turn to the district court’s award of attorneys’ fees under § 285, which we vacate and remand for
further consideration. Under § 285, a “court in exceptional cases may award reasonable attorney fees to the
prevailing party.” An “exceptional” case under § 285 is
“one that stands out from others with respect to the
substantive strength of a party’s litigating position
(considering both the governing law and the facts of the
case) or the unreasonable manner in which the case was
litigated.” Octane Fitness, LLC v. ICON Health &
Fitness, Inc., 572 U.S. 545, 554 (2014). The party seeking fees must prove that the case is exceptional by a
preponderance of the evidence, and the district court
makes the exceptional case determination on a case-bycase basis considering the totality of the circumstances.
See id. at 554, 557.
We review a district court’s grant or denial of attorneys’ fees for an abuse of discretion, which is a highly deferential standard of review. Highmark Inc. v.
Allcare Health Mgmt. Sys., Inc., 572 U.S. 559, 564
(2014); Bayer CropScience AG v. Dow AgroSciences
LLC, 851 F.3d 1302, 1306 (Fed. Cir. 2017) (citing Mentor Graphics Corp. v. Quickturn Design Sys., Inc., 150
F.3d 1374, 1377 (Fed. Cir. 1998)). To meet the abuse-ofdiscretion standard, the appellant must show that the
district court made “a clear error of judgment in weighing relevant factors or in basing its decision on an error

28a
of law or on clearly erroneous factual findings.” Bayer,
851 F.3d at 1306 (quoting Mentor Graphics, 150 F.3d at
1377); see also Highmark, 572 U.S. at 563 n.2.
We see no such error in the district court’s determination that this was an exceptional case. The district
court found:
There can be no doubt from even a cursory review of the record that Cisco pursued litigation
about as aggressively as the court has seen in
its judicial experience. While defending a client
aggressively is understandable, if not laudable,
in the case at bar, Cisco crossed the line in several regards.
Post-Trial Motions Op., 254 F. Supp. 3d at 722.
The district court further explained that “Cisco’s
litigation strategies in the case at bar created a substantial amount of work for both SRI and the court,
much of which work was needlessly repetitive or irrelevant or frivolous.” Id. at 723 (footnotes omitted). Indeed, the district court inventoried Cisco’s aggressive
tactics, including maintaining nineteen invalidity theories until the eve of trial but only presenting two at trial and pursuing defenses at trial that were contrary to
the court’s rulings or Cisco’s internal documents. Id. at
722. Nevertheless, the district court relied in part on
the fact that the jury found that Cisco’s infringement
was willful in its determination to exercise its discretion pursuant to § 285 to award SRI its attorneys’ fees
and costs. Id. at 723. Accordingly, we vacate the district court’s award of attorneys’ fees and remand for
further consideration along with willfulness.
We take no issue with the district court’s award of
attorneys’ fees at the attorneys’ billing rates without

29a
adjusting them to Delaware rates. At the same time,
however, the district court erred in granting all of
SRI’s fees. Section 285 permits a prevailing party to
recover reasonable attorneys’ fees, but not fees for
hours expended by counsel that were “excessive, redundant, or otherwise unnecessary.” Hensley v. Eckerhart, 461 U.S. 424, 434 (1983). We accordingly conclude that the district court should have reduced SRI’s
total hours to eliminate clear mistakes. For example,
one billing entry reads “DON’T RELEASE, CLIENT
MATTER NEEDS TO BE CHANGED.” J.A. 32384.
Accordingly, should the district court award attorneys’
fees on remand, it must remove attorney hours clearly
included by mistake in its calculation of reasonable attorneys’ fees.
VI.
We review for abuse of discretion a district court’s
grant of an ongoing royalty. Whitserve, LLC v. Comput. Packages, Inc., 694 F.3d 10, 35 (Fed. Cir. 2012).
Here, the district court did not abuse its discretion in
awarding “a 3.5% compulsory license for all postverdict sales.” Post-Trial Motions Op., 254 F. Supp. 3d
at 724. The district court’s ongoing royalty rate equals
the rate found by the jury and the base is limited to the
“accused products and services.” J.A. 182.
On appeal, Cisco argues that the district court
abused its discretion in awarding the 3.5% ongoing royalty on “all post-verdict sales” without considering Cisco’s design-arounds. According to Cisco, the court was
obligated to assess whether Cisco’s redesigned products and services were more than colorably different
from those products and services adjudicated at trial,
and if not, whether those redesigned products and services infringe. To this end, Cisco moved to supplement

30a
its post-trial briefing with declarations describing its
redesign efforts. Cisco argues that the district court
abused its discretion by denying its motion to supplement.7 We disagree. The district court properly exercised its discretion in denying Cisco’s motion to supplement the record regarding alleged post-verdict design-around activity. Cisco did not redesign its products until after trial, and Cisco did not file its motion to
supplement until after completion of post-trial briefing.
Given the stage of the proceedings and SRI’s opposition, the trial court acted within its discretion when
denying Cisco’s motion to supplement.
To the extent the district court’s order is unclear—
and we think it is not—we reconfirm that the ongoing
royalty on post-verdict sales is limited to products that
were actually found to infringe and products that are
not colorably different. We discern no error in the district court’s determination that Cisco’s submissions
were untimely. Nevertheless, we acknowledge that the
district court has not yet determined whether products
and services that were not accused (that is, changed
after the jury verdict) are colorably different for purposes of ongoing royalty calculations. Such an issue
could be resolved in a future proceeding.
7

Finally, Cisco argues that, in the same order in which the
court stated that “[t]here are no post-verdict royalties,” the court
awarded a post-verdict royalty—an internal inconsistency. J.A.
175. We do not ascribe weight to the apparent clerical error creating the inconsistency. The district court’s final judgment order is
clear that “Cisco shall pay a 3.5% compulsory license on all postverdict sales of the accused products and services.” J.A. 182. To
the extent that clear statement conflicts with the single sentence
in the memorandum opinion, we think the court made its intentions clear in its final judgment and we see no error by the district
court.

31a
CONCLUSION
For the reasons above, we affirm the district
court’s denial of summary judgment that the asserted
claims are patent-ineligible. We also agree with the
district court’s construction of “network traffic data”
and affirm the district court’s grant of summary judgment of no anticipation. We vacate and remand the district court’s denial of Cisco’s renewed motion for judgment as a matter of law that Cisco did not willfully infringe the asserted claims. Accordingly, we vacate and
remand the district court’s awards of enhanced damages and attorneys’ fees. Finally, we affirm the district
court’s orders granting enhanced damages and ongoing royalties.
AFFIRMED-IN-PART, VACATED-IN-PART, AND
REMANDED
COSTS
No costs.

32a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2223
SRI INTERNATIONAL, INC.,
Plaintiff-Appellee
v.
CISCO SYSTEMS, INC.,
Defendant-Appellant.
Appeal from the United States District Court for
the District of Delaware in No. 1:13-cv-01534-SLRSRF, Judge Sue L. Robinson.
LOURIE, Circuit Judge, dissenting.
I respectfully dissent from the majority’s decision
upholding the eligibility of the claims. In my view, they
are clearly abstract. In fact, they differ very little from
the claims in Electric Power Group, LLC v. Alstom
S.A., 830 F.3d 1350, 1355 (Fed. Cir. 2016), where we
found the claims to be abstract.
The majority opinion focuses on claim 1 of U.S. Patent 6,711,615 (“the ’615 patent”), which recites:
1. A computer-automated method of hierarchical event monitoring and analysis within an
enterprise network comprising:
deploying a plurality of network monitors
in the enterprise network;
detecting, by the network monitors, suspicious network activity based on analysis of

33a
network traffic data selected from one or
more of the following categories: {network
packet data transfer commands, network
packet data transfer errors, network packet data volume, network connection requests, network connection denials, error
codes included in a network packet, network connection acknowledgements, and
network packets indicative of well-known
network-service protocols};
generating, by the monitors, reports of said
suspicious activity; and
automatically receiving and integrating the
reports of suspicious activity, by one or
more hierarchical monitors.
Similarly, the claim we reviewed in Electric Power
Group recited “[a] method of detecting events on an interconnected electric power grid in real time over a
wide area and automatically analyzing the events on
the interconnected electric power grid,” with the method comprising eight steps, including “receiving data,”
“detecting and analyzing events in real time,” “displaying the event analysis results and diagnoses of events,”
“accumulating and updating measurements,” and “deriving a composite indicator of reliability.” 830 F.3d at
1351–52.
While that claim was lengthy, with eight steps, it
merely described selecting information by content or
source for collection, analysis, and display. Id. at 1351.
In finding the claim directed to an abstract idea, we
reasoned that “collecting information, including when
limited to particular content (which does not change its
character as information)” was an abstract idea. Id. at
1353. Limiting the claim to a particular technological

34a
environment—power-grid monitoring—was insufficient
to transform it into a patent-eligible application of the
abstract idea at its core. Id. at 1354. The claim was
rooted in computer technology only to the extent that
the broadly-recited steps required a computer. At step
two, we noted that the claim did not require an “inventive set of components or methods ... that would
generate new data,” and did not “invoke any assertedly
inventive programming.” Id. at 1355.
This case is hardly distinguishable from Electric
Power Group. The claims in that case are said in the
majority opinion to only be drawn to using computers
as tools to solve a problem, rather than improving the
functionality of computers and computer networks.
The claims here recite nothing more than deploying
network monitors, detecting suspicious network activity, and generating and handling reports. The detecting
of the suspicious activity is based on “analysis” of traffic data, but the claims add nothing concerning specific
means for doing so. The claims only recite the moving
of information. The computer is used as a tool, and no
improvement in computer technology is shown or
claimed. There is no specific technique described for
improving computer network security.
I would find the claims directed to the abstract idea
of monitoring network security and proceed to step two
of Alice. As in Electric Power Group, however,
“[n]othing in the claims, understood in light of the specification, requires anything other than off-the-shelf,
conventional computer, network, and display technology ... .” 830 F.3d at 1355. The claims recite “types of
information and information sources,” id., but such selection of information by content or source does not
provide an inventive concept. Id. The specification fur-

35a
ther makes clear that the claims only rely on generic
computer components, including a computer, memory,
processor, and mass storage device. See ’615 patent,
col. 14 ll. 50–57. Indeed, the specification even deems
the relevant memory bus and peripheral bus “customary components.” Id. col. 14 l. 55.
Finally, the majority opinion quotes from and paraphrases language from the specification that only recites results, not means for accomplishing them. See,
e.g., Majority Op. at 9. The claims as written, however,
do not recite a specific way of enabling a computer to
monitor network activity. As we noted in Electric
Power Group, result-focused, functional claims that effectively cover any solution to an identified problem,
like those at issue here, frequently run afoul of Alice.
830 F.3d at 1356.
Thus, I would find the claims to be directed to an
abstract idea at Alice step one, without an inventive
concept at step two, and reverse the district court’s
finding of eligibility. Because I would find the claims at
issue to be ineligible, I would not reach the remaining
issues in the case.

37a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Civ. No. 13-1534-SLR
SRI INTERNATIONAL, INC.,
Plaintiff,
v.
CISCO SYSTEMS, INC.
Defendant.
Filed: April 11, 2016
District Judge Robinson
MEMORANDUM OPINION

I.

INTRODUCTION

Plaintiff SRI International, Inc. (“SRI”) filed suit
against defendant Cisco Systems Inc. (“Cisco”), alleging infringement of U.S. Patent No. 6,711,615 (“the ‘615
patent”) and 6,484,203 (“the ‘203 patent”) (collectively,
“the patents”) on September 4, 2013. (D.I. 1) On December 18, 2013, Cisco answered the complaint and
counterclaimed for noninfringement and invalidity.
(D.I. 9) SRI answered the counterclaims on January 13,
2014. (D.I. 11) The court issued a claim construction
order on May 14, 2015. (D.I. 138) Trial is scheduled to
commence on May 2, 2016. (D.I. 40)
Presently before the court are Cisco’s motion for
summary judgment of invalidity under 35 U.S.C. § 101

38a
(D.I. 158); Cisco’s motion for summary judgment of invalidity under 35 U.S.C. § 102(b) and § 103 (D.I. 182);8
Cisco’s motion barring SRI from recovery of pre-suit
damages based on the equitable doctrine of laches (D.I.
182); Cisco’s motion for summary judgment for noninfringement (D.I. 182); Cisco’s motion to exclude certain opinions of Dr. Prowse regarding SRI’s lump settlement agreements (D.I. 213); Cisco’s motion to exclude the testimony of Dr. Lee regarding apportionment (D.I. 216); and SRI’s motion for summary judgment that Netranger and Hunteman are not prior art
(D.I. 219). The court has jurisdiction pursuant to 28
U.S.C. §§ 1331 and 1338(a).
II. BACKGROUND
A. The Parties
SRI is an independent, not-for-profit research institute incorporated under the laws of the State of California, with its principal place of business in Menlo
Park, California. (D.I. 1 at ¶ 1) SRI conducts clientsupported research and development for government
agencies, commercial businesses, foundations, and other organizations. (Id. at ¶ 6) Among its many areas of
research, SRI has engaged in research related to computer security and, more specifically, to large computer
network intrusion detection systems and methods.
(Id.)
Cisco is a corporation organized and existing under
the laws of the State of California, with its principal
place of business in San Jose, California. (Id. at ¶ 2)
Cisco provides various intrusion prevention and intrusion detection products and services. (Id. at ¶ 14)
8

Three motions were filed under D.I. 182.

39a
B. Patents
The ‘615 patent (titled “Network Surveillance”) is a
continuation of the ‘203 patent (titled “Hierarchical
Event Monitoring and Analysis”), and the patents
share a common specification and priority date of November 9, 1998.9 (D.I. 179 at 1) SRI has asserted infringement of claims 1-4, 14-16, and 18 of the ‘615 patent and claims 1-4, 12-15, and 17 of the ‘203 patent.10
(Id. at 3) The patents relate to the monitoring and surveillance of computer networks for intrusion detection.
In particular, the patents teach a computer-automated
method of hierarchical event monitoring and analysis
within an enterprise network that allows for real-time
detection of intruders. Upon detecting any suspicious
activity, the network monitors generate reports of such
activity. The claims of the ‘203 and ‘615 patents focus
on methods and systems for deploying a hierarchy of
network monitors that can generate and receive reports of suspicious network activity. Independent
claims 1 and 13 of the ‘615 patent read as follows:

9

Unless otherwise indicated, citations are to the ‘615 patent.

10

SRI previously asserted the ‘203 and ‘615 patents before
this court in SRI Int’l, Inc. v. Internet Security Sys., Inc., 647 F.
Supp. 2d 323 (D. Del. 2009) (opinion after jury trial), 401 Fed App’x
530 (Fed. Cir. 2010) (SRI and Symantec then settled the litigation
on confidential terms, Civ. No. 04-1199-SLR, 0.1. 722). The patents
have also each undergone two reexaminations before the PTO,
which reached the same result as the jury and confirmed the patentability of all claims. The patents were also the subject of two
cases before Judge White in the Northern District of California:
Fortinet, Inc. v. SRI Int’l, Inc., Civ. No. 12-3231 JSW (N.D. Cal.),
and Checkpoint Software Technologies, Inc. v. SRI International,
Inc., Civ. No. 12-3231-JSW (N.D. Cal.). (0.1. 220 at 7-8)

40a
1. A computer-automated method of hierarchical event monitoring and analysis within an
enterprise network comprising:
deploying a plurality of network monitors in
the enterprise network;
detecting, by the network monitors, suspicious
network activity based on analysis of network
traffic data selected from one or more of the
following categories: {network packet data
transfer commands, network packet data transfer errors, network packet data volume, network connection requests, network connection
denials, error codes included in a network
packet, network connection acknowledgements,
and network packets indicative of well-known
network-service protocols};
generating, by the monitors, reports of said
suspicious activity; and
automatically receiving and integrating the reports of suspicious activity, by one or more hierarchical monitors.
(15:1-21)
13. An enterprise network monitoring system
comprising:
a plurality of network monitors deployed within an enterprise network, said plurality of network monitors detecting suspicious network
activity based on analysis of network traffic data selected from one or more of the following
categories: {network packet data transfer
commands, network packet data transfer errors, network packet data volume, network

41a
connection requests, network connection denials, error codes included in a network packet,
network connection acknowledgements, and
network packets indicative of well-known network-service protocols};
said network monitors generating reports of
said suspicious activity; and one or more hierarchical monitors in the enterprise network,
the hierarchical monitors adapted to automatically receive and integrate the reports of suspicious activity.
(15:56-16:6)
III. STANDARD OF REVIEW
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). The
moving party bears the burden of demonstrating the
absence of a genuine issue of material fact. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 415 U.S. 475,
586 n. 10 (1986). A party asserting that a fact cannot
be-or, alternatively, is-genuinely disputed must be supported either by citing to “particular parts of materials
in the record, including depositions, documents, electronically stored information, affidavits or declarations,
stipulations (including those made for the purposes of
the motions only), admissions, interrogatory answers,
or other materials,” or by “showing that the materials
cited do not establish the absence or presence of a genuine dispute, or that an adverse party cannot produce
admissible evidence to support the fact.” Fed. R. Civ.
P. 56(c)(1 )(A) & (B). If the moving party has carried
its burden, the nonmovant must then “come forward

42a
with specific facts showing that there is a genuine issue
for trial.” Matsushita, 415 U.S. at 587 (internal quotation marks omitted). The Court will “draw all reasonable inferences in favor of the nonmoving party, and it
may not make credibility determinations or weigh the
evidence.” Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133, 150 (2000).
To defeat a motion for summary judgment, the nonmoving party must “do more than simply show that
there is some metaphysical doubt as to the material
facts.” Matsushita, 475 U.S. at 586-87; see also Podohnik v. U.S. Postal Service, 409 F.3d 584, 594 (3d Cir.
2005) (stating party opposing summary judgment
“must present more than just bare assertions, conclusory allegations or suspicions to show the existence of a
genuine issue”) (internal quotation marks omitted).
Although the “mere existence of some alleged factual
dispute between the parties will not defeat an otherwise properly supported motion for summary judgment,” a factual dispute is genuine where “the evidence
is such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 247-48 (1986). “If the evidence is
merely colorable, or is not significantly probative,
summary judgment may be granted.” Id. at 249-50 (internal citations omitted); see also Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986) (stating entry of summary judgment is mandated “against a party who fails
to make a showing sufficient to establish the existence
of an element essential to that party’s case, and on
which that party will bear the burden of proof at trial”).

43a
IV. INVALIDITY
A. 35 U.5.C. § 101
1. Standard
Section 101 provides that patentable subject matter extends to four broad categories, including: “new
and useful process[es], machine[s], manufacture, or
composition[s] of matter.” 35 U.S.C. § 101; see also Bilski v. Kappas, 561 U.S. 593, 601 (2010) (“Bilski II”);
Diamond v. Chakrabarty, 447 U.S. 303, 308 (1980). A
“process” is statutorily defined as a “process, art or
method, and includes a new use of a known process,
machine manufacture, composition of matter, or material.” 35 U.S.C. § 100(b).
The Supreme Court has explained:
A process is a mode of treatment of certain materials to produce a given result. It is an act, or
a series of acts, performed upon the subjectmatter to be transformed and reduced to a different state or thing. If new and useful, it is
just as patentable as is a piece of machinery. In
the language of the patent law, it is an art. The
machinery pointed out as suitable to perform
the process may or may not be new or patentable; whilst the process itself may be altogether
new, and produce an entirely new result. The
process requires that certain things should be
done with certain substances, and in a certain
order; but the tools to be used in doing this may
be of secondary consequence.
Diamond v. Diehr, 450 U.S. 175, 182-83 (1981) (internal
quotations omitted).
The Supreme Court recognizes three “fundamental
principle” exceptions to the Patent Act’s subject matter

44a
eligibility requirements: “laws of nature, physical phenomena, and abstract ideas.” Bilski II, 561 U.S. at 601.
In this regard, the Court has held that “[t]he concepts
covered by these exceptions are ‘part of the storehouse
of knowledge of all men ... free to all men and reserved
exclusively to none.”‘ Bilski II, 561 U.S. at 602 (quoting Funk Bros. Seed Co. v. Kato lnoculant Co., 333 U.S.
127, 130 (1948)). “[T]he concern that drives this exclusionary principle is one of pre-emption,” that is, “‘that
patent law not inhibit further discovery by improperly
tying up the future use of’ these building blocks of human ingenuity.” Alice Corp. Pty. Ltd. v. CLS Bank
Int’l,—U.S.—, 134 S.Ct. 2347, 2354 (2014) (citing Bilski
II, 561 U.S. at 611-12 and Mayo Collaborative Servs.v.
Prometheus Labs., Inc., 566 U.S.—, 132 S.Ct. 1289,
1301 (2012)).
Although a fundamental principle cannot be patented, the Supreme Court has held that “an application of a law of nature or mathematical formula to a
known structure or process may well be deserving of
patent protection,” so long as that application would not
preempt substantially all uses of the fundamental principle. Bilski II, 561 U.S. at 611 (quoting Diehr, 450
U.S. at 187) (internal quotations omitted); In re Bilski,
545 F.3d 943, 954 (Fed. Cir. 2008) (“Bilski I”). The
Court has described the
framework for distinguishing patents that
claim laws of nature, natural phenomena, and
abstract ideas from those that claim patenteligible applications of those concepts. First,
we determine whether the claims at issue are
directed to one of those patent-ineligible concepts. If so, we then ask, “[w]hat else is there
in the claims before us?” To answer that question, we consider the elements of each claim

45a
both individually and “as an ordered combination” to determine whether the additional elements “transform the nature of the claim” into
a patent-eligible application. We have described step two of this analysis as a search for
an ‘“inventive concept”‘-i.e., an element or
combination of elements that is “sufficient to
ensure that the patent in practice amounts to
significantly more than a patent upon the [ineligible concept] itself.”
Alice, 134 S.Ct. at 2355 (citing Mayo, 132 S.Ct. at 1294,
1296-98).11
“[T]o transform an unpatentable law of nature into
a patent-eligible application of such a law, one must do
more than simply state the law of nature while adding
the words ‘apply it.”‘ Mayo, 132 S.Ct. at 1294 (citing
Gottschalk v. Benson, 409 U.S. 63, 71-72 (1972)) (emphasis omitted). It is insufficient to add steps which
“consist of well-understood, routine, conventional activity,” if such steps, “when viewed as a whole, add nothing significant beyond the sum of their parts taken separately.” Mayo, 132 S. Ct. at 1298. “Purely ‘conventional or obvious’ ‘[pre]-solution activity’ is normally
not sufficient to transform an unpatentable law of nature into a patent-eligible application of such a law.”
Id. (citations omitted). Also, the “prohibition against
11

The machine-or-transformation test still may provide a
“useful clue” in the second step of the Alice framework. Ultramercial, Inc. v. Hutu, LLC, 772 F.3d 709, 716 (Fed. Cir. 2014) (citing Bilski II, 561 U.S. at 604 and Bancorp Servs., L.L.C. v. Sun
Life Assurance Co. of Can., 687 F.3d 1266, 1278 (Fed. Cir. 2012)).
A claimed process can be patent-eligible under § 101 if: “(1) it is
tied to a particular machine or apparatus, or (2) it transforms a
particular article into a different state or thing.” Bilski I, 545 F.3d
at 954, aff’d on other grounds, Bilski II, 561 U.S. 593.

46a
patenting abstract ideas ‘cannot be circumvented by
attempting to limit the use of the formula to a particular technological environment’ or adding ‘insignificant
post-solution activity.”‘ Bilski II, 561 U.S. at 610-11
(citation omitted). For instance, the “mere recitation of
a generic computer cannot transform a patent-ineligible
abstract idea into a patent-eligible invention.” Alice,
134 S.Ct. at 2358. “Given the ubiquity of computers,
wholly generic computer implementation is not generally the sort of ‘additional featur[e]’ that provides any
‘practical assurance that the process is more than a
drafting effort designed to monopolize the [abstract
idea] itself.”‘ Id. (citations omitted).
Because computer software comprises a set of instructions,12 the first step of Alice is, for the most part,
a given; i.e., computer-implemented patents generally
involve abstract ideas. The more difficult part of the
analysis is subsumed in the second step of the Alice
analysis, that is, determining whether the claims
“merely recite the performance of some business practice known from the pre-Internet world along with the
requirement to perform it on the Internet,” or whether
the claims are directed to “a problem specifically arising in the realm of computer technology” and the
claimed solution specifies how computer technology
should be manipulated to overcome the problem. DDR
Holdings, LLC v. Hotels.Com, L.P., 773 F.3d 1245, 1257
(Fed. Cir. 2014).

12

Or, to put it another way, software generally comprises a
method “of organizing human activity.” Intellectual Ventures I
LLC v. Capital One Bank (USA), 792 F.3d 1363, 1367-68 (Fed. Cir.
2015) (citing Alice, 134 S.Ct. 2351-52, and Bilski II, 561 U.S. at
599).

47a
Since providing that explanation, the Federal Circuit has not preserved the validity of any other computer-implemented invention under § 101.13 Indeed, in
reviewing post-Alice cases such as DDR and Intellectual Ventures, the court is struck by the evolution of
the § 101 jurisprudence, from the complete rejection of
patentability for computer programs14 to the almost
complete acceptance of such,15 to the current (apparent)
requirements that the patent claims in suit (1) disclose
a problem “necessarily rooted in computer technology,”
and (2) claim a solution that (a) not only departs from
the “routine and conventional” use of the technology,
but (b) is sufficiently specific so as to negate the risk of
pre-emption. See DDR, 773 F.3d at 1257; Intellectual
Ventures, 792 F.3d at 1371. In other words, even
though most of the patent claims now being challenged
under § 101 would have survived such challenges if
13

See, e.g., In re Smith, Civ. No. 2015-1664, 2016 WL 909410
(Fed. Cir. Mar. 10, 2016); Mortgage Grader, Inc. v. First Choice
Loan Servs. Inc., 811 F.3d 1314 (Fed. Cir. 2016); Vehicle Intelligence and Safety LLC v. Mercedes-Benz USA, LLC, Civ. No. 20151411, 2015 WL 9461707 (Fed. Cir. Dec. 28, 2015); Versata Dev.
Grp., Inc. v. SAP America, Inc., 793 F.3d 1306 (Fed. Cir. 2015);
Intellectual Ventures, 792 F.3d 1363; Internet Patents Corp. v.
Active Network, Inc., 790 F.3d 1343 (Fed. Cir. 2015); O/P Techs.,
Inc. v. Amazon.com, Inc., 788 F.3d 1359 (Fed. Cir. 2015); Allvoice
Devs. US, LLC v. Microsoft Corp., 612 Fed. Appx. 1009 (Fed. Cir.
2015); Content Extraction and Transmission LLC v. Wells Fargo
Bank, Nat’l Ass’n, 776 F.3d 1343 (Fed. Cir. 2014).
14

See, e.g., 33 Fed. Reg. 15581, 15609-10 (1968), and Justice
Steven’s dissent in Diehr, whose solution was to declare all computer-based programming unpatentable, 450 U.S. at 219.
15

State Street Bank & Trust Co. v. Signature Fin. Group,
Inc., 149 F.3d 1368 (Fed. Cir. 1998), abrogated by Bilski I, in which
“a computer-implemented invention was considered patent-eligible
so long as it produced a ‘useful, concrete and tangible result.’”
DDR, 773 F.3d at 1255 (citing State Street Bank, 149 F.3d at 1373).

48a
mounted at the time of issuance, these claims are now
in jeopardy under the heightened specificity required
by the Federal Circuit post-Alice. Moreover, it is less
than clear how a § 101 inquiry that is focused through
the lens of specificity can be harmonized with the roles
given to other aspects of the patent law (such as enablement under § 112 and non-obviousness under §
103),16 especially in light of the Federal Circuit’s past
characterization of § 101 eligibility as a “coarse” gauge
of the suitability of broad subject matter categories for
patent protection. Research Corp. Techs., Inc. v. Microsoft Corp., 627 F.3d 859, 869 (Fed. Cir. 2010). Given
the evolving state of the law, the § 101 analysis should
be, and is, a difficult exercise.17 At their broadest, the
various decisions of the Federal Circuit18 would likely
16

Indeed, Judge Plager, in his dissent in Dealertrack, suggested that,
as a matter of efficient judicial process I object to and
dissent from that part of the opinion regarding the ‘427
patent and its validity under § 101, the section of the Patent Act that describes what is patentable subject matter. I believe that this court should exercise its inherent
power to control the processes of litigation ... , and insist
that litigants, and trial courts, initially address patent
invalidity issues in infringement suits in terms of the defenses provided in the statute: “conditions of patentability,” specifically §§ 102 and 103, and in addition §§ 112
and 251, and not foray into the jurisprudential morass of
§ 101 unless absolutely necessary.
Dealertrack, 674 F.3d at 1335. But see CLS Bank Int’l v. Alice
Corp. Pty., 717 F.3d 1269, 1277 (Fed. Cir. 2013), aff’d, 134 S. Ct.
2347 (2014).
17

And, therefore, not an exercise that lends itself to, e.g.,
shifting fees pursuant to 35 U.S.C. § 285.
18

See, e.g., Dealertrack, where the claim was about as specific
as that examined in DDR, yet the Federal Circuit found the patent

49a
ring the death-knell for patent protection of computerimplemented inventions,19 a result not clearly mandated (at least not yet). On the other hand, to recognize
and articulate the requisite degree of specificity—
either in the equipment used20 or the steps claimed21—
that transforms an abstract idea into patent-eligible
subject matter is a challenging task. In trying to sort
through the various iterations of the § 101 standard, the
court looks to DDR as a benchmark; i.e., the claims (informed by the specification) must describe a problem
and solution rooted in computer technology, and the solution must be (1) specific enough to preclude the risk
of pre-emption, and (2) innovative enough to “override
the routine and conventional” use of the computer.
DDR, 773 F. 3d at 1258-59.
deficient because it did “not specify how the computer hardware and
database [were] specially programmed to perform the steps
claimed in the patent,” 674 F.3d at 1333-34 (emphasis added). The
disclosure of such programming details would likely nullify the ability of a patentee to enforce the patent, given the ease with which
software can be tweaked and still perform the desired function.
19

Ironically so, given the national concerns about piracy of
American intellectual property.
20

See, e.g., SiRF Tech., Inc. v. Int’l Trade Comm’n, 601 F.3d
1319 (Fed. Cir. 2010), a case where the Federal Circuit found that
a GPS receiver was “integral” to the claims at issue. The Court
emphasized that a machine will only “impose a meaningful limit on
the scope of a claim [when it plays] a significant part in permitting
the claimed method to be performed, rather than function solely as
an obvious mechanism for permitting a solution to be achieved
more quickly, i.e., through the utilization of a computer for performing calculations.” Id. at 1333.
21

See, e.g., DDR, 773 F.3d at 1257-58; TQP Dev., LLC v. Intuit Inc., Civ. No. 12-180, 2014 WL 651935 (E.D. Tex. Feb. 19, 2014);
Paone v. Broadcom Corp., Civ. No. 15- 0596, 2015 WL 4988279
(E.D.N.Y. Aug. 19, 2015).

50a
2. Analysis
Applying the analytical framework of Alice, the
court first “determine[s] whether the claims at issue
are directed to one of those patent-ineligible concepts,”
namely, laws of nature, natural phenomena, and abstract ideas. 134 S.Ct. at 2354-55. Cisco argues that
the claims are directed to the abstract idea “of monitoring and analyzing data from multiple sources to detect
broader patterns of suspicious activity,” which is “a
fundamental building block of intelligence gathering
and network security.” (D.I. 159 at 7) Cisco analogizes
this idea to a number of spy and security gathering endeavors, including “networks [employed by] ancient
Chinese military strategists and both sides during the
Revolutionary War” and police departments using
crime reports to detect “broader patterns of criminal
activity.” (Id. at 7-8) More specifically, Cisco argues
that humans can perform each of the steps of the method (detecting suspicious network activity, generating
reports of said activity, and receiving and integrating
the reports), concluding that it is a process that may be
performed in the human mind or using a pen and paper,
thus, unpatentable. (Id. at 10-11) SRI disagrees, pointing out that a human would need to use hardware and
software in order to examine network traffic. (D.I. 179
at 10-12)
That Cisco can simplify the invention enough to
find a human counterpart (or argue that a human could
somehow perform the steps of the method) does not
suffice to make the concept abstract, as “[a]t some level, ‘all inventions ... embody, use, reflect, rest upon, or
apply laws of nature, natural phenomena, or abstract
ideas.”‘ Alice, 134 S.Ct. at 2354 (quoting Mayo, 132
S.Ct. at 1293). The patents address the vulnerability of
computer networks’ “interoperability and sophisticated

51a
integration of technology” to attack. (1:37-40) The
claims at bar are, therefore, more complex than “merely recit[ing] the performance of some business practice
known from the pre-Internet world along with the requirement to perform it on the Internet,” and are better understood as being “necessarily rooted in computer technology in order to overcome a problem specifically arising in the realm of computer networks.” DDR,
773 F.3d at 1257.
Turning to step two of the Alice framework, Cisco
argues that the claims do not provide an inventive concept, describing the method as follows: A first step reciting conventional pre-solution activity (configuring
and installing software); a generic and abstract second
step (analyzing data from certain categories); a noninventive third and fourth step (generating and receiving reports at a centralized computer); and, a fifth step
(combining reports to create new information). (D.I.
159 at 12-14) According to Cisco, the patents recite generic computers, i.e., the network monitors, which the
parties have agreed are “software and/or hardware
that can collect, analyze and/or respond to data.” (Id. at
16; D.I. 47 at 1) The patents explain that “[s]election of
packets can be based on different criteria” (5: 12-38)
and the claims at bar identify “particular categories of
network traffic data ... well suited for analysis in determining whether network traffic was suspicious when
used in a hierarchical system.” (D.I. 179 at 12) As to
the hierarchical analysis, the patents explain that the
“tiered collection and correlation of analysis results allows monitors 16a-16f to represent and profile global
malicious or anomalous activity that is not visible locally.” (8:53-56) The claims as an ordered combination (in
light of the specification) sufficiently delineate “how”
the method is performed to “improve the functioning of

52a
the computer itself,” thereby providing an inventive
concept. Alice, 134 S.Ct. at 2359. The same specificity
suffices to negate the “risk [of] disproportionately tying
up the use of the underlying ideas.” Alice, 134 S.Ct. at
2354; Mayo, 132 S.Ct. at 1294. Cisco’s motion for invalidity (D.I. 158) is denied.
B. Anticipation
1. Standard
Under 35 U.S.C. § 102(b), “[a] person shall be entitled to a patent unless the invention was patented or
described in a printed publication in this or a foreign
country ... more than one year prior to the date of the
application for patent in the United States.” The Federal Circuit has stated that “[t]here must be no difference between the claimed invention and the referenced
disclosure, as viewed by a person of ordinary skill in the
field of the invention.” Scripps Clinic & Research
Found. v. Genentech, Inc., 927 F.2d 1565, 1576 (Fed.
Cir. 1991). In determining whether a patented invention is explicitly anticipated, the claims are read in the
context of the patent specification in which they arise
and in which the invention is described. Glaverbel Societe Anonyme v. Northlake Mktg. & Supply, Inc., 45
F.3d 1550, 1554 (Fed. Cir. 1995). The prosecution history and the prior art may be consulted if needed to impart clarity or to avoid ambiguity in ascertaining
whether the invention is novel or was previously
known in the art. Id. The prior art need not be ipsissimis verb is (i.e., use identical words as those recited in
the claims) to be anticipating. Structural Rubber
Prods. Co. v. Park Rubber Co., 749 F.2d 707, 716 (Fed.
Cir. 1984).

53a
A prior art reference also may anticipate without
explicitly disclosing a feature of the claimed invention if
that missing characteristic is inherently present in the
single anticipating reference. Continental Can Co. v.
Monsanto Co., 948 F.2d 1264, 1268 (Fed. Cir. 1991 ).
The Federal Circuit has explained that an inherent limitation is one that is necessarily present and not one
that may be established by probabilities or possibilities.
Id. That is, “[t]he mere fact that a certain thing may
result from a given set of circumstances is not sufficient.” Id. The Federal Circuit also has observed that
“[i]nherency operates to anticipate entire inventions as
well as single limitations within an invention.” Schering Corp. v. Geneva Pharms. Inc., 339 F.3d 1373, 1380
(Fed. Cir. 2003). Moreover, recognition of an inherent
limitation by a person of ordinary skill in the art before
the critical date is not required to establish inherent
anticipation. Id. at 1377.
An anticipation inquiry involves two steps. First,
the court must construe the claims of the patent in suit
as a matter of law. Key Pharms. v. Hereon Labs Corp.,
161 F.3d 709, 714 (Fed. Cir. 1998). Second, the finder of
fact must compare the construed claims against the
prior art. Id. A finding of anticipation will invalidate
the patent. Applied Med. Res. Corp. v. U.S. Surgical
Corp., 147 F.3d 1374, 1378 (Fed. Cir. 1998).
2. Analysis
Cisco moves for summary judgment that EMERALD 199722 anticipates the patents. (D.I. 182 at 10;
22

Philip Porras and Peter G. Neumann, EMERALD: Event
Monitoring Enabling Response to Anomalous Live Disturbances,
Proceedings of the 20th National Information Systems Security
Conference (October 1997).

54a
D.I. 186, ex. 3) EMERALD 1997 has been discussed in
the court’s prior opinions and by the Federal Circuit.
SRI, 647 F. Supp. 2d at 333-34 (citing SRI, 456 F. Supp.
2d at 626); SRI, 511 F.3d at 1188-89. In short, EMERALD 1997 is a conceptual overview of the EMERALD
system, the brainchild of SRI’s EMERALD project on
intrusion detection, published by Phillip Porras and Peter G. Neumann (both SRI employees) on behalf of SRI
in October 1997. EMERALD 1997 contains a detailed
description of SRI’s early research in Intrusion Detection Expert System (“IDES”) technology, and outlines
the development of the Next Generation IDES
(“NIDES”) for detecting network anomalies. Id. at 334.
The parties do not dispute that EMERALD 1997 is 35
U.S.C. § 102(b) prior art to the patents at issue. EMERALD 1997 is listed as a reference on the face of the
‘615 patent. The parties dispute only whether EMERALD 1997 discloses detection of any of the network
traffic data categories listed in claim 1 of the ‘203 and
‘615 patents and whether EMERALD 1997 is enabled.
One of the claimed categories of network traffic is
“network connection requests.”
EMERALD 1997 “introduces a hierarchically layered approach to network surveillance,’’ pointing out
that “[m]echanisms are needed to provide realtime detection of patterns in network operations that may indicate anomalous or malicious activity, and to respond
to this activity through automated countermeasures.”
(D.I. 186, ex. 3 at 354-55) EMERALD 1997 describes in
relevant part:
The subscription list field is an important facility for gaining visibility into malicious or
anomalous activity outside the immediate environment of an EMERALD monitor. The most
obvious examples where relationships are im-

55a
portant involve interdependencies among network services that make local policy decisions.
Consider, for example, the interdependencies
between access checks performed during network file system [“NFS”] mounting and the IP
mapping of the DNS service. An unexpected
mount monitored by the network file system
service may be responded to differently if the
DNS monitor informs the network file system
monitor of suspicious updates to the mount requester’s DNS mapping.
(D.I. 186, ex. 3 at 358; D.I. 221, ex. A at~ 55) EMERALD 1997 further explains that “[a]bove the service
layer, signature engines scan the aggregate of intrusion
reports from service monitors in an attempt to detect
more global coordinated attack scenarios or scenarios
that exploit interdependencies among network services. The DNS/NFS attack discussed in Section III-B
is one such example of an aggregate attack scenario.”
(D. I. 186, ex. 3 at 360)
Cisco’s expert, Dr. Clark, explains that one of ordinary skill in the art would understand from the disclosures of EMERALD 1997 that “detecting the
‘DNS/NFS attack discussed in Section III-B’ of EMERALD 1997 would require analysis of network connection requests.” He also opines that “[a]n NFS
mount involves a network connection request and thus
the network file system monitor disclosed in EMERALD 1997 would detect suspicious mounts by examining and analyzing network connection request packets.”
He concludes:
A person of ordinary skill in the art would understand that monitoring specific network services ... would require detecting and analyzing

56a
packets indicative of those well-known network
service protocols, one of the enumerated categories in claim 1 of the ‘615 patent. EMERALD 1997 additional[ly] discloses two protocolspecific monitors in the “DNS/NFS attack discussed in Section 111-B” of EMERALD 1997
(p. 360): the “DNS monitor” and “the network
file system monitor.” (p. 358). A monitor that
observes only a specific network protocol, such
as DNS or NFS, would monitor and analyze
packets indicative of those well-known service
protocols while ignoring other packets that are
not indicative or DNS or NFS.
(D.I. 185, ex. A at ,m 104-05) SRI’s expert, Dr. Lee,
opines that “Dr. Clark makes several unsupportable
leaps of inference” in his analysis. More specifically,
although EMERALD 1997 describes “monitoring certain computer system activities,” Dr. Lee does not
agree that “such monitoring must be done using not only data obtained from the direct examination of network packets but also corresponding to one of the enumerated categories of such data.” (D.I. 221, ex. A at~
54) (emphasis omitted) Dr. Lee opines that,
[w]hile it may be true that an “NFS mount involves a network connection request” it is clear
that EMERALD 1997 makes no indication that
directly monitoring network packets categorized as “network connection requests” is the
way to detect suspicious NFS mounts. Indeed,
EMERALD 1997 does not even suggest that
directly monitoring network packets in general
and analyzing the data obtained from them (as
opposed to host audit logs or some other data
source)—let alone any specific type of network
traffic data—is the way to detect suspicious

57a
NFS mounts. As explained above, EMERALD
1997 merely identifies a range of possible
sources of data for analysis and a few examples
of suspicious behavior that the yet-to-be designed EMERALD system should be able to
detect (such as the aforementioned NFS
mounts and DNS table updates). However,
none of the disclosure of EMERALD specifically teaches using the data obtained from packets
transporting these requests ....
(Id. at ¶ 55) Dr. Lee concludes:
Merely reciting monitoring network services
does not disclose to or enable one of skill in the
art to practice the claimed inventions of detecting suspicious network activity based on analysis of network traffic data (data obtained from
the direct examination of network packets) selected from, inter alia, well known network
service protocols.
(Id. at ¶ 56) (emphasis omitted)
Cisco cites to a single case, Kennametal, Inc. v.
Ingersoll Cutting Tool Co., 780 F.3d 1376 (Fed. Cir.
2015), in arguing that “a reference can anticipate a
claim even if it ‘d[oes] not expressly spell out’ all the
limitations arranged or combined as in the claim, if a
person of skill in the art, reading the reference, would
‘at once envisage’ the claimed arrangement or combination.” Id. at 1381 (citation omitted); (D.I. 184 at 10) The
underlying facts in Kennametal, however, are distinguishable from those at bar. In Kennametal, it was not
disputed that the reference (“Grab”) expressly recited
all the elements of the asserted claim; the only question
was “whether the number of categories and components” disclosed in Grab was so large that the claimed

58a
combination “would not be immediately apparent to one
of ordinary skill in the art.” Id. at 1382. The Federal
Circuit declared that, “[a]t the very least, Grab’s express ‘contemplat[ion]”‘ of the claimed combination was
“sufficient evidence that a reasonable mind could find
that a person of skill in the art, reading Grab’s claim 5,
would immediately envisage” the asserted combination. Id. at 1383 (emphasis added). The Court concluded:
Thus, substantial evidence supports the
Board’s conclusion that Grab effectively teaches 15 combinations, of which one anticipates
pending claim 1.
Though it is true that there is no evidence of
“actual performance” of combining the ruthenium binder and PVD coatings, this is not required. … “Rather, anticipation only requires
that those suggestions be enabled to one of skill
in the art.”
Id. (citations omitted).
Unlike the facts in Kennametal, EMERALD 1997
does not expressly recite all the limitations of the asserted claims, specifically, the analysis of network traffic data from at least one of the enumerated categories.
Nor does Cisco argue that the missing limitation is inherently disclosed in the reference. Instead, the essence of what Cisco argues is that, because EMERALD
1997 discloses monitoring of network traffic data in
general, it would be obvious to a person of ordinary
skill in the art to detect “suspicious activity by analysis
of particular network traffic data that falls within at
least one of the enumerated categories in the claims.”
(D.I. 184 at 12) Cisco reasons in this regard that EMERALD 1997 identifies a type of attack as a target for

59a
EMERALD 1997’s signature engines, that such an attack involves a “network connection request” (one of
the specifically enumerated categories of network traffic data in the asserted claims), and that “network
packets indicating a network connection request would
be the natural source to use” for the detection. (Id. at
12-13)
Based on the record presented, the court concludes
that no reasonable jury could find that EMERALD
1997 discloses all the limitations arranged as in the asserted claims. As noted above, the court starts with
the premise that the very case law cited by Cisco is distinguishable on its facts in a dramatic way. Without
EMERALD 1997 expressly (or inherently) disclosing
all of the limitations of the asserted claims,23 the rest of
Kennametal’s teaching must be tempered with the reality that anticipation cannot be based on the multiple
layers of supposition created by Cisco to construct its
theory of anticipation24 and still meet the requirement
that the claimed limitation be immediately apparent.
Although Cisco has attempted to package its anticipation argument in slightly different language than liti23

Which was also the starting point for the court’s anticipation analysis in the prior case. In that case, SRI did not argue that
EMERALD 1997 failed to disclose each of the limitations of the
asserted claims of U.S. Patent 6,708,212 (the ‘212 patent”), instead,
SRI contended that EMERALD 1997 was not an enabling disclosure with respect to the ‘212 patent. The court determined that
EMERALD 1997 enabled statistical profiling of network traffic,
therefore, anticipated the ‘212 patent, in part based on the similarities between the ‘212 specification and EMERALD 1997. SRI,
456 F. Supp. 2d at 632-35; SRI, 511 F.3d at 1192-94.
24

Starting with the suggestion that EMERALD 1997 directs
monitoring a target specific event stream and including the argument that network packets, rather than, e.g., host audit data,
would be the natural source to use.

60a
gants have in prior litigation,25 the argument fails as a
matter of law. The court denies Cisco’s motion for
summary judgment in this regard and grants, sua
sponte, summary judgment of no anticipation by EMERALD 1997.26 See Anderson v. Wachovia Mortg.
Corp., 621 F.3d 261, 280 (3d Cir. 2010) (quoting Celotex
Corp. v. Catrett, 477 U.S. 317, 326 (19,86)) (“[D]istrict
courts are widely acknowledged to possess the power
to enter summary judgments sua sponte, so long as the
losing party was on notice that [it] had to come forward
with all of [its] evidence.”); see also Talecris Biotherapeutics, Inc. v. Baxter Int’l, Inc., 510 F. Supp. 2d 356,
362 (D. Del. 2007) (This court has held that when one
party moves for summary judgment against an adversary, Fed.R.Civ.P. 54(c) and 56, when read together,
give the court the power to render a summary judgment for the adversary if it is clear that the case warrants that result, even though the adversary has not
filed a cross-motion for summary judgment.).
C. Prior Art
1. Standard
The “printed publication” bar of 35 U.S.C. § 102
states:
A person shall be entitled to a patent unless—

25

A jury found that the ‘615 and ‘203 patents were not anticipated by EMERALD 1997 and such verdict was upheld by the
court, which opinion was affirmed by the Federal Circuit. SRI,
647 F. Supp. 2d 323 (opinion after jury trial), 401 Fed App’x 530.
26

The court does not address the issue of enablement, but
notes that its prior finding—that EMERALD 1997 enabled statistical profiling of network traffic generally—does not necessarily
mean that it is an enabling disclosure for the limitations at issue.

61a
…
(b) the invention was patented or described in a
printed publication in this or a foreign country
... more than one year prior to the date of the
application for patent in the United States ... .
“The bar is grounded on the principle that once an invention is in the public domain, it is no longer patentable by anyone.” In re Hall, 781 F.2d 897, 898 (Fed. Cir.
1986) (citing In re Bayer, 568 F.2d 1357, 1361 (C.C.P.A.
1978)). The touchstone in determining whether a reference constitutes a “printed publication” under 35
U.S.C. § 102(b) is “public accessibility.” Id. at 899 (citing In re Bayer, 568 F.2d at 1359; In re Wyer, 655 F.2d
221, 224 (C.C.P.A. 1981)).
A given reference is “publicly accessible” upon
a satisfactory showing that such document has
been disseminated or otherwise made available
to the extent that persons interested and ordinarily skilled in the subject matter or art exercising reasonable diligence, can locate it and
recognize and comprehend therefrom the essentials of the claimed invention without need
of further research or experimentation.
Bruckelmyer v. Ground Heaters, Inc., 445 F.3d 1374,
1378 (Fed. Cir. 2006) (citing In re Wyer, 655 F.2d at
226); see also Constant v. Advanced Micro-Devices,
Inc., 848 F.2d 1560, 1568 (Fed. Cir. 1988) (“Accessibility
goes to the issue of whether interested members of the
public could obtain the information if they wanted to.”).
The determination of whether a reference is a “printed
publication” under § 102(b) involves a case-by-case inquiry into the facts and circumstances surrounding the
reference’s disclosure to persons of skill in the art. In
re Cronyn, 890 F.2d 1158, 1161 (Fed. Cir. 1989) (citing

62a
In re Hall, 781 F.2d at 899; In re Wyer, 655 F.2d at
227).
“The law has long looked with disfavor upon invalidating patents on the basis of mere testimonial evidence absent other evidence that corroborates that testimony.” Finnigan Corp. v. Int’l Trade Comm’n, 180
F.3d 1354, 1366 (Fed. Cir. 1999). Invalidating “activities are normally documented by tangible evidence
such as devices, schematics, or other materials that
typically accompany the inventive process.” Finnigan,
180 F.3d at 1366 (citing Woodland Trust v. Flowertree
Nursery, Inc., 148 F.3d 1368, 1373 (Fed. Cir. 1998)).
Corroboration applies to any subsections of § 102:
[A] witness’s uncorroborated testimony is
equally suspect as clear and convincing evidence if he testifies concerning the use of the
invention in public before invention by the patentee (§ 102(a)), use of the invention in public
one year before the patentee filed his patent
(§ 102(b)), or invention before the patentee
(§ 102(g)).
Martek Biosciences Corp. v. Nutrinova, Inc., 579 F.3d
1363, 1375 n.4 (Fed. Cir. 2009). “When determining
whether [a witness’] testimony is sufficiently corroborated, we apply a rule-of-reason analysis and consider
all pertinent evidence” to determine whether the story
is credible. Martek, 579 F.3d at 1374 (citing Sandt
Tech., Ltd. v. Resco Metal & Plastics Corp., 264 F.3d
1344, 1350 (Fed. Cir. 2001)).

63a
2. NetRanger
To establish that the NetRanger Guide for Version
1.3.127 (“NetRanger 1.3.1 ”) is prior art, Cisco offers the
following evidence.28 NetRanger 1.3.1 has a copyright
date of 1997 and includes an example of an “interactive
component of an event query” wherein the date provided for the event is May 1, 1997. (D.I. 186, ex. 4 at 1, 523) James Kasper (“Kasper”), a former employee of
WheelGroup who joined the company in 1996 and who
worked on the NetRanger technology (including versions 1.0, 1.1, 1.2, 1.3.1 ), testified that he was involved
“with the tech writers for drafting, editing, and polishing the material related to the software components
[he] worked on.” (D.I. 186, ex. 12 at 25:20-26: 10, 28:320) Kasper testified that NetRanger 1.3.1 was prepared
“as a reference for ... customers” and was provided to
the customers in the “summer [of 19]97, but before the
2.0 release which was later, maybe fall [of 19]97.” (Id.
at 28:21-29:2, 70:8-10, 112:3-10) He stated that the soft27

NetRanger is the user’s guide covering installation, configuration, and operation of the NetRanger System.
28

Daniel Teal (“Teal”), co-founder of WheelGroup, provided a
declaration in the exparte reexamination stating that version 1.3.1
was released prior to version 2.0, which was released on August
25, 1997. Teal also stated that the user’s guide “was provided
along with each sale of the NetRanger product version 1.3.1” or if
requested by a potential customer. (D.I. 238, ex. 47 at ¶¶ 14-15)
He stated that a sales list from Wheel Group showed that there
were numerous customers of WheelGroup that had “maintenance”
contracts in place in the summer of 1997. (Id. at ¶ 15 and ex. C)
Teal testified that the majority of customers had maintenance contracts, whereby they would receive the latest version and user
guide automatically when released. (D.I. 238, ex. 48 at 201:21202:2) SRI points out that Teal is not a witness in the current case
and his “opinion is based on the same speculation and inference as
found in the declaration of Mr. Kasper.” (D.I. 251 at 8 n.4)

64a
ware versions would be released consecutively and customers received the software version along with the
corresponding user guide. Maintenance contract customers received the latest version of the software and
the corresponding user guide automatically. (Id. at
23:25-24:22; D.I. 239 at ¶¶ 4-5) He further testified that
the user guide was created in 1997 by employees of
WheelGroup as part of its regular business. (D.I. 186,
ex. 12 at 30:2-21) He testified that he was “not really
sure,” but thought the tech writers would send the user
guides out to Kinkos to print. (Id. at 120: 13-122: 18) He
testified (based on presentation slides29 “probably [created by] a collaboration of marketing and tech writing
with review by engineering”) that version 2.0 was released on or about August 1, 1997. (Id. at 114:20-117:23)
Kasper’s declaration includes a WheelGroup price list
dated September 11, 1997 listing a user guide for sale
and stating that one guide is included with the product.
(D.I. 239 at ¶ 15, ex. F) A report from the U.S. Air
Force Information Warfare Center in February 1997
described its assessment of NetRanger version 1.1.
(D.I. 186, ex. 23) A press release on August 25, 1997 issued by WheelGroup announced the release of version
2.0. (Id., ex. 24) SRI questions the authenticity of the
WheelGroup documents on which Kasper relies. Moreover, SRI points out that Kasper relies on documents
which he himself seeks to authenticate.
The record at bar contains no direct evidence that a
member of the public actually received NetRanger
1.3.1. Indeed, the sales list showing maintenance cus29

A business plan presentation titled “1997 Business Plan
Overview.” Page 18 is titled “Development Schedule - 1997” and
provides a list of dates including May 16, 1997, version 1.3, “Enhanced default signatures, NetView Support, digital licensing” and
August 1, 1997, version 2.0. (D.I. 223, ex. F)

65a
tomers does not indicate which versions of software
and the corresponding user guide were actually distributed to such customers. The price list does not
state a particular version of the user guide for sale.
While the versions of NetRanger software (like any
software) would typically be released in numerical order (and allegedly be accompanied by a user guide), the
record at bar does not establish that version 1.3.1 was
actually disseminated. On the record at bar, the court
concludes that NetRanger 1.3.1 was not “publically accessible” and grants SRI’s motion that NetRanger 1.3.1
is not prior art.30
3. Hunteman
Cisco contends that Hunteman31 was presented at
the Proceedings of the 20th National Information Systems Security Conference in October 1997. Hunteman
is listed in the table of contents for the conference32 at
page 394 and Cisco has provided the paper incorporated into the conference materials with corresponding
pagination. (D.I. 223, ex. J at 3; D.I. 238, ex. 51 at 394)
SRI contends that Cisco has not provided evidence that
William Hunteman “attended the conference, if he presented at the conference, what he presented at the conference, or when the papers were distributed following
the conference.” (D.I. 251 at 17)
“The publication requirement may ... be satisfied by
distributing or making the paper available at a confer30

As such, Cisco’s motion that the combination of EMERALD 1997 and NetRanger renders the asserted claims obvious is
denied.
31

William Hunteman, Automated Information System (AIS) Alarm System.
32

As is EMERALD 1997.

66a
ence where persons interested or skilled in the subject
matter of the paper were told of the paper’s existence
and informed of its contents.” Friction Div. Products,
Inc. v. E.I. DuPont de Nemours & Co., 658 F. Supp.
998, 1008 (D. Del. 1987) aff’d sub nom. Friction Div.
Products, Inc. v. E.I. du Pont de Nemours & Co., 883
F.2d 1027 (Fed. Cir. 1989) (citing Massachusetts Institute of Technology v. AB Fortia, 774 F.2d 1104, 1109
(Fed. Cir. 1985)); cf Norian Corp. v. Stryker Corp., 363
F.3d 1321, 1330 (Fed. Cir. 2004) (“Although there was
testimony that it was the general practice at IADR
meetings for presenters to hand out abstracts to interested attendees, the lack of substantial evidence of actual availability of the Abstract adequately supports
the court’s conclusion that dissemination of the Abstract was not established.”). The court concludes that
the inclusion of Hunteman in the conference materials
(independent from whether William Hunteman attended the conference) is sufficient to make it “publically
accessible.”
V. NON-INFRINGEMENT
A. Standard
When an accused infringer moves for summary
judgment of non-infringement, such relief may be
granted only if one or more limitations of the claim in
question does not read on an element of the accused
product, either literally or under the doctrine of equivalents. See Chimie v. PPG Indus., Inc., 402 F.3d 1371,
1376 (Fed. Cir. 2005); see also TechSearch, L.L.C. v. Intel Corp., 286 F.3d 1360, 1369 (Fed. Cir. 2002) (“Summary judgment of noninfringement is ... appropriate
where the patent owner’s proof is deficient in meeting
an essential part of the legal standard for infringement,
because such failure will render all other facts immate-

67a
rial.”). Thus, summary judgment of noninfringement
can only be granted if, after viewing the facts in the
light most favorable to the non-movant, there is no
genuine issue as to whether the accused product is covered by the claims (as construed by the Court). See
Pitney Bowes, Inc. v. Hewlett-Packard Co., 182 F.3d
1298, 1304 (Fed. Cir. 1999).
B. Analysis
1. “Network traffic data” limitation
SRI accuses two of Cisco’s product lines of infringing
the asserted claims—stand-alone Cisco IPS Sensors
(“IPS Sensors”) and Sourcefire Sensors in combination
with a Defense Center (“Sourcefire Sensors”) (collectively, “the accused sensors”), as well as ancillary services for these products. The accused sensors’ functionality is largely undisputed. The accused sensors obtain certain data from the network packet. The data is
pre-processed. The pre-processed data is then put into
a data structure and analysis is performed on the data
structure. Specifically, the IPS Sensor captures network packets from a network interface and stores these
in a packet buffer. The header portion of the stored
packet is decoded, and relevant information is extracted, converted into host-byte order and stored in a new
data structure called the “CIDS Header.” The content
portion of the stored packet is then subject to various
pre-processing steps (reassembly, defragmentation,
normalization and deobfuscation), and the resulting data derived from this pre-processing is stored in a separate data structure called the “CIDS Buffer.” The
CIDS Header and CIDS Buffer data structures are inspected and analyzed by a series of signature engines in
order to detect undesirable network activity. Similarly,
the Sourcefire Sensors capture network packets from a

68a
network interface and store them in memory. The
stored network packets then have their header decoded, and the packet content is subjected to similar preprocessing steps. The decoded header data and the
pre-processed packet data are stored in a synthetic
packet data structure. The Sourcefire Sensors then run
signature engines applying “Snort” rules against the
synthetic packet data structure in order to detect undesirable network activity. (D.I. 208 at 11-13; D.I. 240
at 8-12)
The parties dispute whether the accused sensors
meet the limitation “detecting suspicious network activity based on analysis of network traffic data.”33 The
court construed “network traffic data” as “data obtained from direct examination of network packets.” In
prosecution, the patentee argued that “direct examination of network packets” was required and distinguished such examination from examining “logs or other information generated ... or otherwise gleaned” from
“analysis of the network packets” or from analysis of a
proxy of the network packets. The court concluded
that the “disclaimer of claim scope, therefore, is broader than excluding host-based monitoring of audit logs,
and explicitly extends to proxy information or ‘other
information generated therefrom or otherwise
gleaned.’” (D.I. 138 at 2-3; D.I. 96 at JA3489)
The parties’ experts apply the claim construction
differently. SRI’s expert, Dr. Lee, opines that the accused sensors “analyze data obtained from direct examination of network packets,” by “captur[ing] each pack33

Found in claim 13 of the ‘615 patent and claim 12 of the ‘203
patent. Claim 1 of the ‘615 patent and claim 1 of the ‘203 patent
similarly recite “detecting, by the network monitors, suspicious
network activity based on analysis of network traffic data.”

69a
et and then perform[ing] ‘deep packet inspection.’” The
accused sensors “obtain data from the headers and payload of each packet by directly examining each packet
and its contents. For each packet, this data may then
be stored in data structures in memory but the analysis
is still performed on data that has been obtained from
directly examining the received packets themselves.”
(D.I. 243, ex. A at ¶¶ 160, 199) According to Dr. Lee,
Cisco’s argument that “the analysis must occur directly
upon network packets themselves” is incorrect. Dr.
Lee opines that applying the court’s construction, “the
limitation does not exclude analysis of network traffic
data that has been obtained from direct examination of
network packets and then stored in memory.” (Id. at
¶¶ 167-68, 206) He explains that the patents at issue
“embrace that a network monitor may normalize, reassemble, defragment, or deobfuscate packets because
SRI’s patents teach that the network monitor may be
deployed at a gateway and may perform ‘applicationlayer monitoring.”‘ (Id. at ¶¶ 169, 207-208)
Cisco’s expert, Dr. Clark, disagrees with Dr. Lee’s
analysis and opines that the accused sensors “analyze
information derived from network packets that has
been translated, reassembled, defragmented, normalized, and de-obfuscated.” (D.I. 211, ex. A at ¶¶ 88, 303)
Dr. Clark explains that such steps are necessary to
avoid “evasion techniques.”
Without these preprocessing steps, the IPS sensor would not act like the
destination device and “malicious actors can easily
evade what protections the sensor is intended to provide.” He concludes that “the derived information that
results from this IP and TCP defragmentation is not
data obtained from direct examination of network
packets.” (Id. at ¶¶ 90-91, 305) He opines further that
“in the 1997-1998 time period, one of skill in the art

70a
would not have understood that normalization, deobfuscation, defragmentation, and reassembly were required to obtain meaningful data, because the commercial systems available at that time did not do so.” (Id.
at ¶¶ 95, 310) Moreover, according to Dr. Clark, the
“examination of ... translated data [from the CIDS
header] does not involve direct examination of data obtained from network packets;” such examination is
“even further removed from direct examination than
the type of analysis discussed” in the prosecution history.” (Id. at ¶¶ 98-101, 312-13)
Having reviewed the summary judgment record,
the court concludes that the construction of “network
traffic data” will benefit from clarification. In essence,
Dr. Clark has opined that the current construction—
“data obtained from direct examination of network
packets”—requires that the analysis of such data take
place without any further manipulation. The court, in
its construction, did not mean to so narrowly (and unrealistically) confine the scope of the limitation. It is
the court’s understanding that there are many sources
of data (besides network packets) that could be analyzed, as noted in the prosecution history34 and in the
prior art.35 To say that the data “is obtained from direct examination of network packets” means to differentiate the original source of the data, not how or
34

“[T]he claim language requires the suspicious network activity to follow from analysis of the network packets, not logs or
other information generated therefrom or otherwise gleaned.”
(D.I. 96 at JA3489)
35

“[T]he event stream mentioned in EMERALD 1997 may
originate ‘from a variety of sources including audit data, network
datagrams, SNMP traffic, application logs, and analysis results
from other intrusion-detection instrumentation.”‘ (D.I. 220 at 32,
citing EMERALD 1997 at 356, D.I. 186, ex. 3)

71a
where the data is analyzed. As explained by Dr. Lee,
the accused sensors obtain the data from the headers
and payload of each packet and may store such data in
data structures in memory. The data may then be
normalized, reassembled, defragmented, or deobfuscated for purposes of analysis to detect suspicious network
activity. (D.I. 243, ex A at ¶¶ 160-69) In other words,
although the data obtained from the network packets is
manipulated, each packet is captured in the first instance before it is examined. The fact that the data
may be stored before analysis is performed on the data
does not detract from its lineage.
As noted, Dr. Clark has offered an opinion that is
inconsistent with the court’s clarified construction. If
he did not specifically address Dr. Lee’s opinion in the
alternative, the court will have to address the issue at
the pretrial conference. The court denies Cisco’s motion in this regard.36
2. “Hierarchical monitor” limitation
The IPS Sensor uses software, including a SensorApp process, responsible for inspecting traffic flowing on a network and detecting undesirable network
activity. The SensorApp process uses a variety of signature engines that match data from network packets
to a set of predefined “signatures.” If a signature engine detects a match, then the IPS Sensor will generate
an event, drop the network traffic, modify the network
traffic, or take no action at all, depending upon how the
device is configured. The SensorApp process is a mul36

Cisco’s argument that the doctrine of equivalents is inapplicable based on prosecution history disclaimer is also informed by
the court’s analysis above and will be addressed, as needed, at the
pre-trial conference if the parties cannot reach agreement.

72a
tithreaded process with one or more “SensorApp processing threads.” The Meta Event Generator (a particular signature engine) is contained within a “SensorApp processing thread” and inspects events generated by the other signature engines to determine if
they match any Meta Signature. If there is a match,
the Meta Event Generator creates a Meta Event that is
then forwarded (along with the other events) from the
IPS Sensor to management devices such as the Cisco
Security Manager. (D.I. 208 at 5-6)
The parties agreed during claim construction that a
“network monitor” is “software and/or hardware that
can collect, analyze and/or respond to data” and a “hierarchical monitor” is “a network monitor that receives
data from at least two network monitors that are at a
lower level in the analysis hierarchy.” (D.I. 47 at 1-2)
Dr. Lee opines that the Meta Event Generator is a hierarchical monitor, which applies meta-signatures to
each IPS event. The meta-signatures operate on IPS
events rather than on network traffic data. He explains that “any and all of the ‘monitors’ may be either
hardware or software based so long as the hardware or
software modules exist in a hierarchy, as required by
the claims. One of skill in the art would understand
that multiple network monitors and a hierarchical monitor may all be software modules and may all be deployed within the same hardware box.” (D.I. 243, ex. A
at ¶¶ 311-313) Dr. Clark disagrees and opines that the
SensorApp threads are not separate software programs and, therefore, the Meta Event Generator “cannot be a hierarchical monitor because it does not receive events from at least two network monitors that
are at a lower level in the analysis hierarchy.” (D.I.
211, ex. A at ¶¶ 78, 141) He further explains that
“treating individual signature engines as network mon-

73a
itors is inconsistent with the” patents at issue, because
the specification “draws a distinction between network
monitors and signature engines.”
Specifically,
“[s]ignature engines exist within a network monitor;
they are not network monitors themselves.” (Id. at
11140)
According to Cisco, the Meta Event Generator is
an integral part of the SensorApp processing thread
and, therefore, is not at a higher level in the analysis
hierarchy. (D.I. 208 at 16) In other words, Cisco argues
that the SensorApp processing thread cannot simultaneously be both the alleged “network monitor” and “hierarchical monitor” under the claims, because they are
not “separate and distinct structures.” (D.I. 250 at 910) The claim language and the parties’ constructions
do not require that the “network monitor” and “hierarchical monitor” be separate structures. Indeed, as
pointed out by Dr. Lee, all of the “monitors” in the
claims could be software. The court concludes that the
expert opinions present factual disputes on whether the
Meta Event Generator meets the claim limitation.
Such disagreements are issues of material fact and will
be left to a jury. Cisco’s motion is denied in this regard.37
3. Direct infringement by Cisco or its customers
The parties agree that not all uses of the accused
sensors infringe. A patentee must “either point to spe37

Cisco contends (in its reply brief) that SRI avoided accusing individual signature engines within a SensorApp processing
thread of meeting the “network monitor” limitation and should be
precluded from such argument. (D.I. 250 at 10) Such an evidentiary issue is better addressed at the pre-trial conference if the
parties cannot reach agreement.

74a
cific instances of direct infringement or show that the
accused device necessarily infringes the patent in suit.”
ACCO Brands v. ABA Locks Manufacturer Co., Ltd.,
501 F.3d 1307, 1313 (Fed. Cir. 2007); see also Dynacore
Holdings Corp. v. U.S. Philips Corp., 363 F.3d 1263,
1275-76 (Fed. Cir. 2004). “Direct infringement can be
proven by circumstantial evidence.” Vita-Mix Corp. v.
Basic Holding, Inc., 581 F.3d 1317, 1326 (Fed. Cir.
2009) (citing Moleculon Research Corp. v. CBS, Inc.,
793 F.2d 1261, 1272 (Fed. Cir. 1986)).
Such
“[c]ircumstantial evidence must show that at least one
person directly infringed an asserted claim during the
relevant time period.” Toshiba Corp. v. Imation Corp.,
681 F.3d 1358, 1364 (Fed. Cir. 2012) (citing Lucent
Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1317 (Fed.
Cir. 2009) (“[A] finding of infringement can rest on as
little as one instance of the claimed method being performed during the pertinent time period.”).
Cisco disputes whether SRI has provided sufficient
evidence of direct infringement, arguing that SRI must
show actual use of the accused sensors configured in an
infringing manner. Dr. Lee opines that the IPS Sensors infringe in their default configuration and that Cisco instructs its customers not to disable the Meta
Event Generator. (D.I. 243, ex. A at ¶ 86) The parties
also dispute the meaning of a survey, wherein 60-64%
of customers responded that they “currently use[d]” or
“enabled” the Meta Event Generator.38 That Cisco and

38

Cisco points to the deposition testimony of the Home Depot
corporate representative, agreeing that “Home Depot has not used
any IDS functionality” in certain products as evidence that Home
Depot “never enabled the IPS functionality of those products.”
(D.I. 250 at 11; D.I. 252, ex. 35 at 120:4-9) Such argument is unhelpful as it equates intrusion defense systems (IDS) and intrusion

75a
its expert disagree with many of Dr. Lee’s conclusions
does not suffice to negate the evidence that SRI has
put forward at the summary judgment stage.
As to the Sourcefire Sensors, the parties generally
agree that the compliance engine (configured to provide
the claimed integration/correlation functionality) is
turned off by default, but some Cisco customers enable
it. In order to infringe the claims, a customer must also
write a particular compliance rule. (D.I. 240 at 30-32;
D.I. 250 at 14-15) SRI provides the following circumstantial evidence of direct infringement: Customers
enable the compliance engine; the Cisco user guide informs users how to “nest rules” after creating new
rules; and, a certain customer, Trans Union, correlates
multiple IPS events using the compliance engine. (D.I.
240 at 30-32) (citations omitted) Cisco and its expert
disagree with the presentation, explanation, and conclusions drawn by SRI and its expert regarding whether such evidence demonstrates infringement. Such disagreements preclude summary judgment.
SRI contends that the IOC feature of the
Sourcefire Managers performs the limitation “integrating the reports of suspicious activity, by one or more
hierarchical monitors.” (D.I. 243, ex. A at ¶¶ 343-344)
While the Sourcefire Sensors are shipped with the feature disabled, customers are instructed that the feature
may be enabled and used.” (D.I. 241, ex. 9) Moreover,
the evidence shows that customers have purchased the
specific license required to use such feature. (D.I. 243,
ex. A at ¶¶ 343-344) Cisco relies upon the declaration of
a principle engineer to argue that the IOC feature does
not perform the claim limitation. (D.I. 208 at 24-25; D.I.
prevention systems (IPS), which are not the same. (D.I. 252, ex.
35 at 78:6-9)

76a
210) At the summary judgment stage, the court concludes that SRI’s evidence suffices to create genuine
issues of material fact. For each of the above arguments, SRI’s evidence suffices to go beyond a showing
that the accused sensors are “capable” of infringing and
is sufficient to create a genuine issue of material fact.
Toshiba Corp. v. Imation Corp., 681 F.3d 1358, 1365
(Fed. Cir. 2012) (Evidence that an infringing mode “is
not disabled by default” and that it is “recommended
that customers use the infringing mode,” is “evidence
[that] goes beyond showing that the accused DVDs are
‘capable of’ infringing; the evidence is sufficient to create a genuine issue of material fact, thus precluding
summary judgment.”).
As to the Cisco and Sourcefire services, the parties
appear to agree that the services are not “separate
technology” from the accused sensors. The court understands that the accused services provide a customer
with one of the accused sensors and then either provide
management or updates to the accused sensor. Therefore, the infringement of the accused services rises and
falls with the infringement of the sensors. (D.I. 240 at
35-40; D.I. 250 at 19) Having denied Cisco’s motion for
summary judgment of non-infringement of the accused
sensors, the court denies the motion with regard to the
services.
VI. PRE-SUIT DAMAGES - LACHES
A.

Standard

Laches is defined as “the neglect or delay in bringing suit to remedy an alleged wrong, which taken together with lapse of time and other circumstances,
causes prejudice to the adverse party and operates as
an equitable bar.” A.C. Aukerman Co. v. R.L Chaides

77a
Const. Co., 960 F.2d 1020, 1028-29 (Fed. Cir. 1992) (en
banc). For a defense of laches, defendant has the burden of proving that: (1) plaintiff delayed in filing suit for
an unreasonable and inexcusable length of time after
plaintiff knew or reasonably should have known of its
claim against the defendant; and (2) defendant suffered
material prejudice or injury as a result of plaintiff’s delay. Id. at 1028.
With regard to the first prong of unreasonable delay, “[t]he length of time which may be deemed unreasonable has no fixed boundaries but rather depends on
the circumstances.” Id. at 1032. In determining
whether plaintiff’s delay in filing suit was unreasonable,
the court must look to the period of time beginning
when plaintiff knew or reasonably should have known
of defendant’s alleged infringing activity and ending
when plaintiff filed suit. The period does not begin,
however, until the patent issues. Id. In addition, the
court must consider and weigh any excuses offered by
plaintiff for its delay including, but not limited to: (1)
other litigation; (2) negotiations with the accused; (3)
possible poverty or illness under limited circumstances;
(4) wartime conditions; (5) the extent of the alleged infringement; and (6) a dispute over the ownership of the
asserted patent. Id. at 1033.
A presumption of laches arises if plaintiff delays filing suit for six years after actual or constructive
knowledge of the defendant’s acts of alleged infringement. Id. at 1037. “[T]he law is well settled that where
the question of laches is in issue ... plaintiff is chargeable with such knowledge as he might have obtained upon inquiry, provided the facts already known by him
were such as to put upon a man of ordinary intelligence
the duty of inquiry.” Wanlass v. Gen. Elec. Co., 148
F.3d 1334, 1338 (Fed. Cir. 1998). The period of delay

78a
continues if prior products are the same or similar to
the alleged infringing products. See Symantec Corp. v.
Computer Assocs. Int’l, Inc., 522 F.3d 1279, 1295 (Fed.
Cir. 2008). Once the presumption is met, the burden
shifts to plaintiff to present evidence to create a genuine dispute with respect to the reasonableness of the
delay.39 See Aukerman, 960 F.2d at 1028. However,
this presumption may be rebutted if plaintiff is able to
show sufficient evidence to generate a genuine issue of
fact as to the existence of either one of the factual elements associated with the laches defense.40 Id. at 1038.
Turning to consider the second prong of material
prejudice, defendant can establish either evidentiary
prejudice or economic prejudice. Id. Evidentiary prejudice may arise where the delay has curtailed defendant’s ability to present a full and fair defense on the
merits due to the loss of evidence, the death of a witness, or the unreliability of memories. Id. Economic
prejudice arises where a defendant suffers the loss of
monetary investments or incurs damages which would
have been prevented if plaintiff had filed suit earlier.
Id. In this regard, courts must look for a change in the
economic position of the alleged infringer during the
period of delay; courts cannot simply infer economic
prejudice from the possibility of damages pursuant to a
finding of liability for infringement. Id.

39

In Aukerman, the court made clear, however, that “at all
times, ... defendant bears the ultimate burden of persuasion of the
affirmative defense of laches; the burden of persuasion does not
shift by reason of ... plaintiff’s six-year delay. 960 F.2d at 1038.
40

If the presumption of laches is rebutted, the defense of
laches is not eliminated. Rather, defendant can still establish laches by establishing the elements for this defense based upon the
totality of the evidence presented. Aukerman, 960 F.2d at 1038.

79a
“The application of the defense of laches is committed to the sound discretion of the district court.” Id. at
1032. Because it is equitable in nature, “mechanical
rules” do not govern its application. Id. at 1032. Instead, the court must consider all of the facts and circumstances of the case and weigh the equities of the
parties. “The issue of laches concerns delay by one party and harm to another. Neither of these factors implicates the type of special considerations which typically
trigger imposition of the clear and convincing standard.” Consequently, the defendant must establish the
elements for the laches defense by the preponderance
of the evidence, consistent with the burden of proof in
equitable laches and estoppel cases. Intuitive Surgical,
Inc. v. Computer Motion, Inc., Civ. No. 01-203, 2002
WL 31833867, *5 n.4 (D. Del. 2002). When laches is applied, the plaintiff may not recover any damages for the
period of time prior to filing suit. Aukerman, 960 F.2d
at 1028.
B. Analysis
Cisco asserts that SRI knew about Cisco’s alleged
infringement of the patents by no later than 2003-2004,
approximately ten years before SRI filed suit; therefore, the doctrine of laches is presumed to apply. (D.I.
183 at 6) SRI contends that: (1) genuine issues of material fact exist as to whether SRI can be charged with
constructive knowledge of Cisco’s infringement; and (2)
genuine issues of fact exist as to whether Cisco was
prejudiced either through loss of evidence or economically due to SRI’s delay. (D. I. 197 at 1)
Cisco contends that, while SRI asserts that it did
not have actual knowledge of infringement, this is insufficient to defeat summary judgment, for SRI had a
duty to police its patent rights and the court should im-

80a
pose constructive knowledge based on the required
reasonable, diligent inquiry. (D.I. 183 at 5) The court
agrees. SRI admits that it was aware of Cisco’s product offerings such as “CiscoWorks,” “Cisco Integrated
Router 7301 ,”and “Cisco IDS” sensor products around
2004 and knew there was a possibility of infringement.
(D.I. 197 at 2) Therefore, SRI reasonably should have
known of its claims against Cisco. A presumption of
laches applies.
Because the presumption is met, the two facts of
unreasonable delay and prejudice must be inferred, absent rebuttal evidence. Aukerman, 960 F.2d at 1037.
SRI bears the burden only of coming forward with sufficient evidence to raise a genuine factual issue respecting the reasonableness of its conduct, that defendant
suffered no prejudice, or both. Id.; see also TWM Mfg.
Co. v. Dura Corp., 592 F.2d 346, 349 (6th Cir. 1979);
Maloney-Crawford Tank Corp. v. Rocky Mountain
Natural Gas Co., 494 F.2d 401, 404 (10th Cir. 1974).
The court finds that SRI has met this burden. SRI presents evidence that, during the delay, it was engaged in
other litigation.41 (D.I. 197 at 2) Courts have routinely
held that this type of excuse may be considered and
weighed as a justification for the delay, and rebuts the
presumption of laches. See, e.g., Aukerman, 960 F.2d at
1033, 1038; Jamesbury Corp. v. Litton Indus. Prods.,
839 F.2d 1544, 1552-53 (Fed. Cir.), cert. denied, 488 U.S.
828 (1988); Hottel Corp. v. Seaman Corp., 833 F.2d
1570, 1572-73 (Fed. Cir. 1987); American Home Prods.
v. Lockwood Mfg. Co., 483 F.2d 1120, 1123 (6th Cir.
41

SRI provides information that from 2004 until SRI provided notice to Cisco on May 8, 2012, SRI filed two infringement actions that involved two appeals to the Federal Circuit and a jury
trial, and also prosecuted four ex parte reexaminations. (D.I. 197
at 12)

81a
1973). Cisco’s assertion that for other litigation to excuse a delay there must be adequate notice of the proceedings to defendant is incorrect. (D. I. 183 at 8) The
court in Aukerman made clear that the district court’s
rejection of plaintiff’s excuse of other litigation because
they did not give notice to defendant was erroneous,
“for there can be no rigid requirement in judging a
laches defense that such notice must be given.” 960
F.2d at 1039 (emphasis in original). The court concludes that SRI has raised genuine issue of fact regarding whether an unreasonable delay can be shown due to
SRI’s alleged excuses and, therefore, denies Cisco’s
motion for summary judgment of laches.42
VII. MOTIONS TO EXCLUDE
Rule 702 of the Federal Rules of Civil Procedure allows a qualified witness to testify in the form of an
opinion if the witness’ “scientific, technical, or other
specialized knowledge will help the trier of fact to understand the evidence or to determine a fact in issue”
and if his/her testimony is the product of reliable principles and methods which have been reliably applied to
the facts of the case.
A. Dr. Prowse’s Opinions
Cisco moves to exclude certain opinions of SRI’s
damages expert, Dr. Prowse, regarding royalty rates
42

By raising a genuine issue respecting either factual element
of a laches defense, the presumption of laches is overcome.
Aukerman, 960 F.2d at 1038; see also Watkins v. Northwestern
Ohio Tractor Pullers, 630 F.2d 1155, 1159 (6th Cir. 1980). Because
the court finds that SRI has raised a genuine issue of fact regarding the reasonableness of the delay and, thus, defeated the presumption of laches, it declines to address SRI’s argument that
there exists a material issue of fact regarding prejudice.

82a
as lacking the required “sufficient facts or data.”
Whitserve LLC v. Computer Packages, Inc., 694 F.3d
10, 30 (Fed. Cir. 2012) (“[L]ump sum payments ...
should not support running royalty rates without testimony explaining how they apply to the facts of the
case.”).
Specifically, Cisco moves to exclude Dr.
Prowse’s opinions based on “seven non-comparable
lump sum settlement agreements.” (D.I. 263 at 3) Dr.
Prowse has opined, based in part on a number of license
agreements that SRI has entered into, that damages
should be based on a reasonable royalty rate on the apportioned value of the accused products of at least 7.5%.
(D.I. 215, ex. 2 at ¶ 152) Several of the licenses disclose
such a rate. (D.I. 215, exs. 3, 4, 6, 10) Dr. Prowse also
cites to deposition testimony and other documents.
(D.I. 245, ex. 4 at ¶¶ 55, 57, 59-60, 63, 66 70-73, 75, 77)
SRI points out that certain of the licenses did not arise
in the context of litigation. (D.I. 244 at 7 n.5) Cisco argues that, because the court does not allow discovery or
testimony into a negotiation process, the settlement
agreements (a product of such negotiations) should be
excluded. (D.I. 214 at 7-8)
The court, consistent with the policies of Rule 408
of the Federal Rules of Evidence and its practice, will
exclude those settlement agreements (and the opinions
based thereon) that are a product of litigation, as such
settlements reflect the parties’ consideration of multiple factors unrelated to valuation issues. PharmaStem
Therapeutics, Inc. v. Viacell Inc., Civ. No. 02-148 GMS,
2003 WL 22387038, at *2 (D. Del. Oct. 7, 2003) (“Specifically, a license agreement may be excluded from evidence under Rule 408 where it (1) was reached under a
threat of litigation, (2) arose in a situation where litigation was threatened or probable, or (3) was negotiated
against a backdrop of continuing litigation infringe-

83a
ment.”). The licenses entered into as a product of business negotiations outside the context of litigation are
properly considered. To the extent the parties cannot
reach agreement on the IBM and McAfee licenses,43 the
parties may present such issues at the pre-trial conference. The motion to exclude is granted in part and denied in part.
B. Dr. Lee’s Testimony
Cisco moves to exclude the opinions of Dr. Lee regarding apportionment, arguing that he is unqualified
to provide such economic expert opinion. SRI responds
that Cisco’s expert, Dr. Leonard, arrived at many of
the same apportionment numbers. Moreover, Dr. Lee’s
opinions are technically based and should be allowed.
(D.I. 246) Dr. Leonard’s “methodology for determining
the properly apportioned royalty base” relies either on
Dr. Lee’s apportionment figures or on figures derived
from speaking with Dr. Clark (Cisco’s technical expert).
(D.I. 247, ex. 1 at ¶¶ 176-78 & n.382-83) Cisco is free to
challenge the conclusions and analysis provided by Dr.
Lee on cross-examination. The court denies the motion
to exclude.
VIII.

CONCLUSION

For the foregoing reasons, the court denies Cisco’s
motion for summary judgment of invalidity under 35
U.S.C. § 101 (D.I. 158); denies Cisco’s motion for summary judgment of invalidity under 35 U.S.C. § 102(b)
and § 103 (D.I. 182); denies Cisco’s motion barring SRI
from recovery of pre-suit damages based on the equitable doctrine of laches (D.I. 182); denies Cisco’s motion
43

SRI states that these two licenses are not the product of litigation. (D.I. 244 at 7 n.5) Cisco disagrees. (D.I. 263 at 4)

84a
for summary judgment for noninfringement (D.I. 182);
grants in part and denies in part Cisco’s motion to exclude certain opinions of Dr. Stephen Prowse regarding
SRI’s lump settlement agreements (D.I. 213); denies
Cisco’s motion to exclude the testimony of Dr. Wenke
Lee regarding apportionment (D.I. 216); and grants in
part and denies in part SRI’s motion for summary
judgment that Netranger and Hunteman are not prior
art (D.I. 219); and sua sponte grants summary judgment of no anticipation by EMERALD 1997. An appropriate order shall issue.

